<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2020</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]




 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2020

                              ----------                              


                        WEDNESDAY, MAY 22, 2019

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 9:47 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Lisa Murkowski (Chairman) 
presiding.
    Present: Senators Murkowski, Alexander, Blunt, Capito, 
Hyde-Smith, Daines, Rubio, Udall, Leahy, Tester, Merkley, and 
Van Hollen.

                       DEPARTMENT OF THE INTERIOR

              OPENING STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Good morning to everyone. Thank you, 
Secretary Bernhardt, for being here before the subcommittee as 
we review the fiscal year 2020 budget request for the 
Department of the Interior.
    Secretary, welcome. This is your first appearance before 
this subcommittee, but during your tenure as Deputy Secretary 
and now as Secretary, we have had the chance to work together 
on many of the issues that are very important to Alaska as we 
are working to responsibly develop our resources, address the 
multiple issues that face our Native peoples, address the 
environmental issues that we face, such as remediation of 
legacy wells, and certainly better management of our Federal 
lands. We are making progress, but I think we know that there 
is always more to do.
    The Department administers many programs that impact 
Alaskans, while also being responsible for stewardship of much 
of the Federal lands that comprise over 60 percent of our 
State.
    Alaskans need the Department to be a reliable partner, and 
I sincerely appreciate your commitment and certainly the 
attention that you have provided to Alaska.
    The fiscal year 2020 budget request for the Department of 
the Interior is $11.5 billion for programs within the 
jurisdiction of the Interior subcommittee. That is roughly $1.6 
billion below the enacted level. That is a reduction of 12 
percent.
    While I support many of the components in this budget 
request, there are also some areas and portions that raise 
concern. But like every President's budget request, we know 
that this is a proposal and that Congress will enact the final 
budget for the Department.
    There are lots of issues this morning. You will hear from 
myself and from my colleagues. I would like to hear more about 
the Department's proposed reorganization. I am generally 
supportive of all executive agencies that take a hard look at 
their internal processes and work to improve efficiency and 
coordination within their agency.
    Now that you have taken over as Secretary, I am interested 
in learning more about your plan for the proposed reorg and the 
details of the steps you are taking to implement it.
    The request rightly calls for significant and continued 
investment in energy security, mineral security, and 
responsible development. Promoting domestic energy production 
creates American jobs, generates revenues, and a return on the 
taxpayer dollars as well as, certainly, a very critical focus 
of enhancing national security.
    Equally important is critical mineral development and 
protection. The request recognizes the importance of critical 
minerals in part by proposing to begin an Outer Continental 
Shelf (OCS) Critical Mineral Inventory. Know that I support and 
applaud the administration for prioritizing the need to reduce 
our Nation's dependence on foreign sources for critical 
minerals.
    I am also hopeful that the Department will find a way to 
move forward with a new 5-year plan for offshore leasing that 
includes Alaska.
    I strongly disagree, and I said so previously, with the 
recent District Court decision on the Arctic OCS which 
reinstates President Obama's end-of-office decision to withdraw 
the vast majority of the Beaufort Sea and all of the Chukchi 
Sea from responsible development.
    As we have seen production fall in Alaska, foreign imports 
have grown significantly in States like California and others. 
We can and should reverse this trend, and safe Arctic 
development, including in the Arctic National Wildlife Refuge 
(ANWR) and the National Petroleum Reserve-Alaska (NPR-A), will 
help achieve that. I trust the Department to find the best 
pathway forward with the new 5-year plan and responsible 
development of our Arctic resources.
    In other news for Alaska, I do appreciate that this 
request, unlike those in years past, does not propose a cut to 
the Alaska conveyance program. This is something that I have 
been working on since I came to the Senate. In fact, I believe 
my first significant legislation said we are going to complete 
the conveyances that are owed to the State of Alaska and to our 
Native peoples, and we are going to do it by the 50th year of 
Statehood. Well, I think this year is now our 60th year. We are 
still working on that commitment and that promise, but we have 
waited a long time. And the fact that both the State and our 
Native people are still owed title conveyance of millions of 
acres of land from the Federal Government is something that has 
been a real raw spot.
    So know that each year, we fought to fund this program. I 
am glad to see that the administration has backed away from the 
attempts to cut it.
    When we speak about our Native peoples, I think it is 
important to recognize that my home is home to one-half of all 
federally recognized Tribes. They call Alaska home. The Bureau 
of Indian Affairs provides essential programs for Alaska 
Natives that are fundamental to the Federal Government's legal 
obligations to our First Peoples.
    I have been concerned by some of the proposed reductions 
that we see within the Bureau of Indian Affairs (BIA). This is 
particularly regarding the elimination of the small and needy 
Tribes and the housing programs, as well as proposed decreases 
to important human services, natural resources, real estate, 
and construction programs. These are areas that I am going to 
be asking you about this morning.
    Know that I want to work with you to ensure that all these 
programs are properly funded so that we can meet our trust 
responsibilities.
    I have made a real effort over the recent years to do more 
with Tribal court funding. I know that that is an issue that my 
colleague here and many on this subcommittee support, and we 
are pleased to see that that is included in this year's budget.
    I was pleased to see the administration proclaim May 5 as 
Missing and Murdered American Indians and Alaska Native 
Awareness Day. This is an issue again that many of us on the 
subcommittee who serve not only on this subcommittee, but serve 
on the Indian Affairs Committee, have been very concerned about 
what we have come to learn about this. Some would describe it 
as an epidemic. You do not have statistics like we have with 
our Native American, Alaska Native women without having a very 
serious problem around the country.
    As we work together to develop and implement strategies to 
help, I think it is important that we focus on these rural 
areas that lack adequate public safety. They face high rates of 
violence, abuse, murder, and trafficking. It is going to take a 
lot of coordination. It is going to take a lot of communication 
and the resources to address this and do it right. So we look 
forward to working with you on that.
    Of course, we cannot talk about funding needs for public 
lands without addressing deferred maintenance. This is a 
problem across the Department. We have worked in this 
subcommittee to help address backlog maintenance issues, but 
quite frankly, we just do not have enough discretionary funding 
available to solve the problem.
    The principles behind this budget request's Public Lands 
Infrastructure Fund proposal, as well as the Restore Our Parks 
Act, which Senator Alexander has championed, along with Senator 
Portman and some others, would certainly help address the 
difficulties that we face in finding the resources. You and I 
have had several discussions about the need to address the 
deferred maintenance backlog at our Nation's parks and our 
refuges as well. Know that you have got a lot of eager folks on 
this subcommittee willing to work with you, and certainly in my 
role as Chairman of the Energy Committee. We want to make sure 
that this very significant and important issue is addressed.
    There are a number of topics I hope to learn more about 
today, including how the proposal fulfills our commitment to 
science and addresses natural hazards, as well as meets our 
goal of better stewardship of public lands. We do not have as 
much time as we would probably like within the subcommittee. I 
know that there are other subcommittees that are meeting this 
morning as well, so we will try to get through our business as 
quickly as we can.
    With that, I turn to my Ranking Member and friend, Senator 
Udall.

                     STATEMENT OF SENATOR TOM UDALL

    Senator Udall. Thank you, Madam Chair, and Happy Birthday 
again.
    Senator Murkowski. Thank you.
    Senator Udall. Happy Birthday again.
    Secretary Bernhardt, thank you for appearing before the 
subcommittee this morning in your first hearing since you were 
confirmed as Secretary of Interior.
    Although this is a budget hearing, I am not going to spend 
much time going over your budget proposal. I think it is fair 
to say the administration's proposal is dead on arrival. We 
simply are not going to defund the Land and Water Conservation 
Fund or reduce the Payment in Lieu of Taxes program or cut 
programs to fulfill programs that fulfill the trust and treaty 
obligations to Native Americans.
    Instead, we will get to work on a bipartisan budget 
agreement, as we have done in the past, and we will prevent 
sequestration and meet our needs as a Nation.
    We could also spend this entire hearing probing your 
various conflicts of interest. It is clear you are making 
decisions that benefit former clients instead of the American 
people, but the Inspector General has opened an investigation, 
and we will be interested in reviewing those findings.
    So I will instead use my limited time talking about policy. 
Let me start with climate change.
    Mr. Secretary, you said at a hearing last week you are, 
quote, ``not losing sleep'' over scientific reports that carbon 
dioxide is at the highest levels ever recorded in human 
history. This is deeply troubling.
    Let me tell you, along with many Americans, I am losing 
sleep over climate change and over this administration's 
stubborn refusal to address its threat.
    What we see with our own eyes every day--extreme weather 
events, droughts, heat waves--is clear. We are already seeing 
that our national parks and public lands are some of the most 
vulnerable. Tribal Nations are in the bull's eye. Our forests 
in New Mexico and across the Southwest are experiencing more 
catastrophic wildfires.
    Drought in the Colorado River looks like it is here to stay 
at a time 40 million of people rely on that increasingly 
stressed source of water.
    As my colleague, Chairman Murkowski, well knows, Alaska 
Natives are literally losing their communities to increasing 
ocean levels and facing the decline of traditional food sources 
like walrus because of decreased sea ice. And this data point 
exemplifies the crisis: Glacier National Park in Montana is 
unlikely to have any actual glaciers by 2030.
    Wildlife habitats are changing, and more species than ever 
are threatened with extinction. A United Nations panel just 
identified climate change as a major cause of our current 
biodiversity crisis, which threatens 1 million species of 
plants and animals worldwide.
    Climate change is the most pressing issue of our time. It 
is an existential threat.
    Secretary Bernhardt, Federal law, including the Federal 
Lands Policy Management Act, the National Park Service Organic 
Act, and the Wilderness Act, require the Department to manage 
Federal lands and waters for the benefit of future generations. 
It is impossible to meet that mandate if you disregard climate 
change.
    I was troubled you attempted to lay the Department's lack 
of action at Congress' feet during recent testimony before a 
House Committee. This is not about ``shalls,'' as you put it. 
Blaming Congress is a dodge. This is about how you choose to 
exercise the broad discretion Congress vested in the Department 
of the Interior.
    Past administrations chose to take on climate change, to 
harness the agency's vast authority to tackle our generation's 
defining issue, but instead, this administration is actively 
working to dismantle every tool to address the threat, 
including gutting the Bureau of Land Management (BLM) methane 
waste rule and rescinding policies that address climate change 
planning and mitigation.
    This administration's focus on energy dominance has wiped 
out all climate change efforts. There are also plenty of other 
areas where I see the devastating effects of your policies.
    For instance, on the 5-year anniversary of the Organ 
Mountains-Desert Peaks National Monument in Southern New 
Mexico, I am concerned about Interior's reduction of national 
monuments, even those with broad support in the community.
    I am troubled by efforts to roll back species protections 
where it is gutting sage grouse management plans or weakening 
Endangered Species Act regulations and reports that the 
Department is actively working to politicize science, including 
burying a study showing the devastating effects of the 
pesticide chlorpyrifos on 70 percent of the species listed 
under the Endangered Species Act.
    I am concerned that the Department is making funding 
decisions in Aamodt that threaten an Indian water rights 
settlement that took 51 years to resolve. After months of 
negotiations, the Department is now withholding appropriated 
dollars. The parties and the project are shovel-ready, but 
Interior is stalling.
    And I am concerned by the actions that disregard the 
importance of natural and cultural resource values if they get 
in the way of development. We see this in the Department's 
efforts to expand oil and gas development in the region 
surrounding Chaco Culture National Historical Park in New 
Mexico. The Department keeps pressing forward, even though 
Native American Tribes and Congress have objected to the effect 
that this development will have on such a sacred landscape.
    I could go on, but I am eager to ask questions and hear 
what you have to say. You have had a hand in many of these 
decisions, Secretary Bernhardt, decisions I view as deeply 
damaging. So I appreciate the chance to have a frank discussion 
on these policies.
    Thank you very much, Madam Chair.
    Senator Murkowski. Thank you, Senator Udall.
    Mr. Secretary, you have the subcommittee's undivided 
attention here this morning. We would ask that you provide 
whatever statement that you would like, and then we will have 
an opportunity for the questions and the back-and-forth.
    Welcome to the subcommittee. Thank you for being here.
STATEMENT OF HON. DAVID BERNHARDT, SECRETARY, U.S. 
            DEPARTMENT OF THE INTERIOR
    Secretary Bernhardt. Good morning. Can you all hear me? I 
am a little deaf, and I never am quite positive. Okay.
    I would like to request that my written statement be 
included in the record at the appropriate place.
    Senator Murkowski. Your full statement will be included and 
incorporated as part of the record.
    Secretary Bernhardt. Great.
    Chairman Murkowski, Ranking Member Udall, Members of the 
subcommittee, I am here to discuss the President's 2020 budget 
request for the Department of the Interior.
    Senator Murkowski laid out the highlights, our request 
totals $12.6 billion. This is actually about $925 million above 
last year's request, even though it is down from the enacted 
level, and it is my understanding that your jurisdiction is 
about $11.5 billion of that $12.6. So you are the large share 
of this.
    This budget meets the administration's goal of managing 
Federal spending with restraint. I recognize that we proposed 
the budget, and you address it.
    I do want to highlight some important components of it, 
though, during our short time.
    Of our total request, about $4.9 billion supports land 
management operations of the Bureau of Land Management, the 
National Park Service, and the Fish and Wildlife Service, 
including resource development operations, conservation 
stewardship activities, and our Federal wildlife 
responsibilities.
    Increasing recreational opportunities on Federal lands and 
waters is among our highest priorities, and approximately $970 
million is for recreation and public access programs.
    The request also makes an investment, $1.5 billion, for 
infrastructure maintenance and construction, which includes 
about $640 million for National Park Service construction and 
maintenance.
    As Senator Murkowski referenced, Interior has struggled to 
address deteriorating infrastructure and maintenance backlogs 
at our parks, at our refuges, our Indian education schools, and 
even some of our major water facilities. I really hope that we 
can work together to see if there is a way to address these 
needs and meet them in some way.
    We have proposed the Public Lands Infrastructure Fund as 
part of our budget. It is actually a pretty significant thing 
to get the Office of Management and Budget (OMB) to go along 
with some mandatory spending. So it is not without effort that 
we did that.
    Conservation stewardship is key to our mission, and our 
efforts would not be possible without our partners across the 
Country. This budget includes a request of about $465 million 
to support the Payments in Lieu of Taxes program.
    Obviously, combatting wildland fire is critical to our 
mission. We spent about $528 million in 2018 on fire 
suppression. Our request this year of $384 million for 
suppression meets the Appropriations Act requirements for the 
average.
    The budget also includes about $194 million for proactive 
fuels management, and we really fundamentally believe that 
active fuels management is a necessary tool to address 
wildfires. The administration has also proposed a number of 
forest management legislative reforms as part of our budget. 
Those are largely categorical exclusions.
    Last year, our energy and minerals portfolio contributed 
about $150 billion to the economy and supported about 740,000 
jobs nationwide, and the budget supports continued economic 
strength and energy security. The budget includes $30 million 
to advance the administration's critical mineral strategy, 
which Senator Murkowski referenced.
    I think it is not insignificant that in response to some of 
the trade dialogue, yesterday the Premier of China was at a 
critical mineral, rare earth facility. I certainly hope you 
will think about that as you look at that component of our 
budget.
    The budget continues our important relationship with the 
insular areas and our commitment to tribal prosperity and self-
determination. We believe it would strengthen and improve the 
delivery of education services to Native children and also 
collaboration across Federal and Tribal agencies to address 
criminal justice issues, including the significant escalating 
reports of missing and murdered persons in Indian Country.
    In terms of big-picture items, we do intend to proceed with 
the Department's reorganization efforts, with some modification 
to what Secretary Zinke proposed, and I am happy to visit with 
you about that.
    I do believe that we can all benefit from focusing more of 
our operations West, closer to where our assets are actually 
located.
    I do intend to continue an aggressive approach to dealing 
with harassment in all forms. We developed a very strong 
harassment policy. I have worked with the bureaus to implement 
and develop plans, and we are holding them accountable. The 
reality is we have made strides, but we have a great deal more 
work to do in that area. And it is toxic to our culture.
    Mr. Udall, I respect your comments about ethics, but I will 
tell you I am working very hard to transform the Department's 
ethics program overall. By the end of this fiscal year, we will 
have doubled the number of career ethics officials hired in the 
entire previous administration.
    I have also directed the Ethics Office to begin 
consolidating our disparate ethics functions into a 
comprehensive departmental program to create a better 
functioning and robust program, and we will be submitting a 
reprogramming notice to you on that in the near future.
    With that, I will conclude my statement, and I look forward 
to answering any of the questions you have.

    [The statement follows:]
               Prepared Statement of Hon. David Bernhardt
    Chairman Murkowski, Ranking Member Udall, and Members of the 
subcommittee, I appear before you today to discuss the President's 2020 
budget request for the Department of the Interior. Interior's 2020 
budget totals $12.6 billion, of which $11.5 billion supports activities 
within the jurisdiction of this subcommittee. The 2020 request reflects 
the administration's support for Interior's important missions and is 
$926.2 million above the President's 2019 request for Interior. Thanks 
to the work of this subcommittee, in fiscal year 2020 Interior will 
have access to additional funding in the event of a severe wildland 
fire season, through disaster cap authority.
                         2020 budget priorities
    Interior's 2020 budget reflects the administration's effort to 
strike the right balance of protection and sustainable use of resources 
in a way that provides proper conservation stewardship of our land and 
resources, enhances the safety of our communities, increases energy 
security, and allows America to prosper within our budgetary 
parameters. The budget invests to grow jobs and prosperity, promote 
safe and secure communities, strengthen America's energy security, meet 
Interior's Trust responsibilities, and continue to reorganize the 
Department of the Interior.
    At the same time, this budget meets the administration's broader 
economic objective to manage Federal spending with restraint. We've 
focused our resources to take care of the assets we have, expand public 
access to our lands, and invest where Interior can make a significant 
contribution to national objectives.
    Complementing our funding request, the President's 2020 budget 
request features two significant legislative proposals to address 
wildfire risk through forest management reforms, and to rebuild 
America's public lands infrastructure.
                   promoting jobs and economic growth
    The administration is committed to economic growth and prosperity. 
The2020 budget supports working lands, good-paying American jobs, 
common sense regulatory reform, expanded opportunities for the outdoor 
recreation economy, and increased revenue to States, Tribes, and local 
communities. Interior balances access for Americans to enjoy their 
public lands, managing these special places and natural resources for 
generations to come and the development needed to serve the public and 
fuel local economies.
    Of Interior's $12.6 billion 2020 budget request, $4.9 billion 
supports the land management activities of the Bureau of Land 
Management (BLM), the National Park Service (NPS), and the Fish and 
Wildlife Service (FWS). These operating funds support the primary 
activities to meet the unique resource mission of each bureau. This 
funding supports resource development, day-to-day operations, and 
conservation stewardship activities for Interior's great places; and 
fulfills the Department's Federal wildlife responsibilities.
    America's Federal lands and waters contain tremendous job-creating 
assets, supporting more than 1.8 million jobs in energy, recreation, 
grazing, conservation, and hospitality. The stewardship of these 
resources and partnerships with communities bordering the public lands 
drive job opportunities and economic growth.
    Interior's resource management programs directly support important 
jobs across America. The budget invests $92.0 million in the BLM 
Rangeland Management program, which supports western ranching families, 
by managing nearly 18,000 livestock grazing permits and leases on the 
public lands. The BLM public domain forestry and Oregon and California 
grant lands programs support jobs and local economies through timber 
and timber product sales. The 2020 budget includes $107.2 million for 
these programs to support timber sales and forest management projects. 
Consistent with the targets established under Executive Order 13855, 
the request supports an estimated 280 million board feet in timber 
sales in 2021, continuing annual increases from the 2018 production 
level of 226 million board feet.
    The 2020 budget includes $12.3 million for BLM's Other Mineral 
Resources Management program which manages development of leasable 
minerals. Funding in 2020 will be used to streamline program 
activities, expedite processing of applications, and facilitate more 
timely inspection and enforcement actions.
    The U.S. Geological Survey's (USGS) mineral resources program works 
to understand the fundamental science and identify supplies of mineral 
resources to support land use decisions across the United States. This 
program directly supports the administration's efforts to strengthen 
America's energy and critical minerals security as outlined in 
Executive Order 13817. The program is working to identify domestic 
supplies of 35 critical minerals needed for manufacturing and 
technology innovation. The 2020 budget for the USGS includes $30.3 
million for critical minerals work. This investment will provide the 
advanced topographic, geologic, and geophysical data needed to locate 
U.S. critical mineral resources to inform management of private-sector 
domestic development, reduce dependence on foreign sources, and support 
job creation and technological innovation.
    To increase U.S. economic strength, the administration has 
challenged Federal agencies to reduce the regulatory burden on 
Americans. We are working to ensure our regulations reflect advances in 
science and technology and foster innovation and economic growth. We 
have also established standard goals to reduce page length and review 
times, internal processes, and applied project management practices to 
improve Interior's National Environmental Policy Act review and 
clearance activities. As part of this effort, we are also working to 
revise outdated processes and leverage technology to deliver better 
service. The 2020 budget invests in improvements to make it easier to 
do business with Interior, including more timely processing of coal, 
oil and gas, grazing management, communications infrastructure, and 
surface mining reclamation plan reviews.
    Our efforts to improve Interior's review and permitting activities 
directly contribute to a stronger infrastructure in the United States. 
Interior reviews and approves permits for Federal and private sector 
uses of Interior lands, including energy and minerals development, 
pipelines, and transmission infrastructure. The 2020 budget requests 
$107.5 million for planning and consultation, which includes support 
for the FWS to perform reviews required under Section 7 of the 
Endangered Species Act and thereby avoid unnecessary delays in Federal 
infrastructure projects.
    Investment in Interior's infrastructure also benefits local 
economies. Interior's infrastructure crisscrosses the country in 
roughly 2,400 locations. In many communities our operations are a major 
economic driver. Interior owns approximately 43,000 buildings, 106,000 
miles of road, and 77,000 structures--including dams, schools, 
laboratories, employee housing, and irrigation and power 
infrastructure. Many of these assets are deteriorating. In 2018, 
Interior's deferred maintenance backlog was over $18 billion, of which 
nearly $12 billion is associated with NPS assets. The 2020 budget 
invests $1.5 billion across Interior for infrastructure maintenance and 
construction to care for our assets. This includes $639.8 million for 
NPS construction and maintenance. Complementing the request is proposed 
legislation to establish a Public Lands Infrastructure Fund, setting 
aside up to $1.3 billion a year, $6.5 billion over 5 years, from 50 
percent of energy development revenue that would otherwise be credited 
or deposited as miscellaneous receipts to the Treasury. Within 
Interior, the Fund would be available for infrastructure needs in NPS, 
FWS, the Bureau of Indian Education (BIE), and BLM.
    According to the U.S. Commerce Department, in 2016, America's 
outdoor economy accounted for $412 billion of the U.S. GDP. Interior 
plays a major role in supporting America's outdoor economy through 
access to our public lands. Every year, hundreds of millions of visits 
are made to our national parks, national wildlife refuges, and BLM 
public lands to do everything from rock climb, kayak and camp to 
snorkel, hunt, and fish. Recreation visits to BLM and NPS lands alone 
support more than 350,000 jobs.
    Increasing recreational opportunities for more Americans through 
our public lands and waters also brings more economic opportunity for 
our neighboring gateway communities. Increased public access to 
America's lands is among our highest priorities. The budget for our 
primary land management bureaus includes roughly $970.9 million for 
recreation and public access programs to increase the public's 
enjoyment of Interior's unique resources. In FWS, this request supports 
safe and reliable access to outdoor recreation for over 55 million 
visitors to the national wildlife refuges. The refuge system has more 
than 377 units that offer high-quality hunting opportunities and 312 
units that are open to fishing. These activities, along with special 
events and outdoor education programs, annually generate $2.4 billion 
in economic activity and support more than 35,000 jobs. The 2020 budget 
includes $9.1 million for FWS to improve trails, open new areas to 
hunting, fishing and other recreation, increase awareness through 
updated websites and recreation maps, and deliver engaging 
environmental education programs at the refuges.
    In 2018, the 418 units of the national park system hosted over 318 
million visitors. The 2020 request for NPS includes $237.1 million for 
Visitor Services to support informative programming, concession 
management, and other activities to enhance the visitor experience. The 
budget invests $10.0 million to expand outdoor recreation opportunities 
including fishing programs for youth and other novice anglers, improve 
recreational related infrastructure and resources, and coordinate with 
State, local, business, and nonprofit stakeholders to increase access 
to outdoor recreation.
    Responsible stewardship also means being a good neighbor. The 2020 
budget maintains the administration's continuing support for the 
Payments in Lieu of Taxes program, recognizing the inability of local 
communities to collect property taxes on certain Federal lands in their 
jurisdiction. In 2018, Interior made payments to over 1,900 local 
governments across the United States. Communities traditionally use 
these payments to help deliver vital services such as firefighting and 
police protection, construction of public schools and roads, and 
search-and- rescue operations. The 2020 budget includes $465.0 million 
in direct appropriations to support these payments.
 collaborative conservation of wildlife, habitat and cultural resources
    Conservation stewardship is a key component of Interior's overall 
mission and is shared across all bureaus. Whether implementing resource 
conservation projects, providing grants, scientific expertise, or 
educational programs to support land, water, and wildlife conservation, 
Interior is a leader in protecting and managing America's resources for 
current and future generations to enjoy. The Department's conservation 
efforts would not be possible without our partners across America.
    Our partners include the sportsmen and sportswomen who live 
America's conservation ethic. They volunteer and frequently provide 
private and partnership resources to care for wildlife habitat, species 
management, and collaborative conservation. Through the Pittman-
Robertson and Dingell-Johnson Act programs, sportsmen and sportswomen 
contribute over a billion dollars each year to wildlife and habitat 
conservation and outdoor recreation projects. Every time a firearm, 
fishing rod, hook, bullet, motor boat or boat fuel is sold, part of 
that cost goes to fund conservation.
    Increased access to hunting and fishing on public lands not only 
supports the outdoor economy but it actively supports conservation of 
these lands. Sportsmen and sportswomen also help to leverage roughly 
two to one the Federal contribution for Interior's North American 
Wetlands Conservation Act Grants. The 2020 budget includes $40 million 
for these grants, which support projects to improve the health of 
wetlands, support migratory birds, and enhance nearby water quality. 
The 2020 budget also includes $31.3 million for State and Tribal 
Wildlife Grants supporting State and Tribal projects to benefit local 
wildlife and their habitats through planning and restoration.
    The 2020 budget prioritizes partnerships, species recovery, and 
proactive wildlife and habitat conservation to avoid species from 
becoming endangered. The budget includes $95.0 million to recover 
listed species, and $26.4 million for a range of proactive species and 
habitat specific conservation and restoration programs to avoid the 
need to list species. The $67.8 million request for FWS Habitat 
Conservation features $54.4 million for the Partners for Fish and 
Wildlife Program, which leverages the Federal investment for 
conservation projects with local non-Federal partners all across the 
country.
    BLM's multiple use mission enables work, such as grazing, to 
continue on the public lands, but also ensures conservation of many 
species and their habitats--safeguarding the Nation's public lands as 
well as peoples' livelihoods. BLM manages more wildlife habitat acreage 
than any other Federal agency--supporting conservation efforts for 
3,000 species and preserving and restoring essential habitat for 430 
threatened or endangered species. The 2020 BLM budget includes $118.4 
million for Wildlife and Habitat Management. Management activities 
benefit native prairie, wildlife, and livestock, and help stabilize 
soils, maintain and improve water quality, reduce surface runoff and 
control flooding, improve ecological site conditions, and enhance 
overall environmental well-being.
    Habitat corridors are a feature of many of the tracts of land 
managed by BLM and are important for migrating wildlife. The Department 
is working with States to research and protect the migration corridors 
of some of North America's most iconic big-game species by protecting 
the range of moose, mule deer, elk, pronghorn antelope, bighorn sheep, 
and other species who share the ecosystem benefit. The 2020 budget 
invests $18.4 million across Interior to continue to support and expand 
migration corridor partnerships and conservation opportunities.
    America relies on the NPS to protect and maintain the natural 
beauty of the parks' iconic landscapes as well as the artifacts and 
structures which help tell America's history. The $2.4 billion request 
for national park operations includes $321.6 million for natural and 
cultural resource stewardship across the parks. The FWS mission focuses 
on the conservation, protection, and enhancement of wildlife and their 
habitats. The 2020 FWS budget includes $234.4 million for Wildlife and 
Habitat Management in the national refuge system.
    USGS provides science, consistent monitoring, observation and 
mapping to support the Department's conservation mission. USGS research 
provides insight into changes in the natural world--our water, lands, 
geology, wildlife--and how they may affect our communities. The 2020 
budget includes $141.0 million for scientific work related to 
ecosystems, supporting investigations related to specific ecosystems, 
such as Florida's Everglades; or biological threats to species, 
including White Nose Syndrome in bats.
    Water is vitally important to the health and well-being of 
Americans and our lands and wildlife. The USGS works with partners to 
manage water monitoring networks across the country which are relied 
upon by land managers, industry, and communities concerned about the 
availability of water or risk of flooding. USGS also addresses water 
quality issues, such as the prevalence of harmful algal blooms, which 
pose risks to natural resources reliant on water but also people. The 
2020 budget includes $179.9 million for USGS Water Resources programs 
to monitor, understand, and inform water challenges for the benefit of 
land and wildlife conservation, and communities across the country.
                 active management for healthy forests
    Dense undergrowth has amassed on Federal lands, providing fuel for 
catastrophic wildfires and worsening insect infestation, and spread of 
invasive species and disease. These conditions are harming the Nation's 
forests, rangelands, and watersheds, and placing people, their homes, 
and their communities at risk. These conditions also make it more 
dangerous for wildland firefighters to fight the fires. Active fuels 
management is a necessary and important tool to combat these threats, 
save lives, and protect property.
    In tandem with the budget, the administration proposes a package of 
forest management legislative reforms to help address this serious 
risk. By providing the Department with additional tools to expedite 
timber salvage operations in response to wildfires, insect and disease 
infestations, and other disturbances, the Department can more 
effectively reduce the risk of wildfire, utilize forest materials 
damaged as a result of those events, and better allocate resources to 
support restoration activities. Interior's 2020 budget includes $194.0 
million in Wildland Fire Management to support aggressive fuels 
reduction work and pre-suppression activities to help mitigate the 
incidence of catastrophic wildfires. The budget also includes $161.8 
million for timber management programs in the BLM and the Bureau of 
Indian Affairs (BIA), to prioritize planning and preparation activities 
affecting timber sales volumes and forest health. In addition, the BLM 
budget includes $92.0 million to support healthy rangelands through 
weed reduction, vegetation treatments, and permitted grazing 
operations. The NPS budget includes $4.0 million specifically to 
improve active forest and vegetation management in the national parks.
    Complementing this initiative, Interior continues to work closely 
with partners to improve the sage-steppe working landscapes of the West 
which are vitally impacted by wildland fires. The 2020 budget includes 
$55.5 million to implement sage-grouse management plans and continue 
cooperation with Western States on greater sage-grouse conservation. 
This funding will be used to remove conifers, create fire breaks, 
remove fire-prone invasive plants, and protect and restore habitat for 
all sagebrush dependent wildlife. At the end of 2018, nearly 1.5 
million acres had been treated. The 2020 budget also includes $75.7 
million to continue management of Wild Horses and Burros on America's 
rangelands.
    More active forest management like expedited timber salvage can 
reduce the risk to firefighters and revegetation crews, speeding the 
recovery of lands. The expedited recovery of wood products also 
provides an economic benefit. In turn, the fire risk to people, 
communities, recreation facilities, and infrastructure is reduced.
                      safe and secure communities
    The Department of the Interior is the proud home of 3,600 Federal 
law enforcement officers with duties as varied as the bureaus' 
missions. Interior has highly specialized units in three major cities, 
drug enforcement teams in Indian Country, urban search-and-rescue units 
that provide hurricane response, and backcountry units that operate in 
the wilderness for days at a time. The 2020 budget includes a total of 
$930.3 million for law enforcement programs, continues successful 
border enforcement and drug enforcement programs, and supports a new 
initiative to address the epidemic of violence and missing persons in 
Indian Country.
    Interior's law enforcement officers help to secure Interior lands 
on the southern border. Over 12.5 million acres under Interior 
jurisdiction are within 50 miles of the United States-Mexico border. 
More than 655 miles of land along the border are managed by Interior's 
bureaus. Interior works closely with the Department of Homeland 
Security to increase security on the southwest border, including 75 
border miles on Tribal lands, primarily managed by the Tohono O'odham 
Nation in Arizona. Currently, about 300 miles, or less than half, of 
Interior's border lands have a vehicle barrier, pedestrian fence, or 
wall.
    Fulfilling the President's commitment to end the opioid crisis in 
America is another top priority of the Department. This budget includes 
$10.0 million including an increase of $2.5 million, to continue 
support for the fight against opioids in Indian Country. BIA drug 
enforcement agents are part of the Federal Opioid Reduction Task Force 
addressing the increase in drug-related activities through interdiction 
programs to reduce drug use, distribution, and drug-related crime to 
help communities in Indian Country battle the opioid crisis. In the 
first year of operation, the Task Force conducted 8 undercover 
operations leading to more than 180 arrests and seizure of more than 
1,000 pounds of narcotics worth more than $9.0 million that were 
intended for sale in Indian Country.
    Interior's wildland fire suppression operations are part of a 
vitally important partnership across all levels of government to fight 
wildfires on public lands and minimize risk to nearby communities. In 
fiscal year 2018, Interior spent more than $528 million on wildfire 
suppression efforts alone. The 2020 budget includes $383.7 million for 
wildfire suppression, pursuant to the requirements under the 
Consolidated Appropriations Act, 2018. Consistent with the Act, 2020 is 
the first year resources are also available through a wildfire budget 
cap adjustment to meet U.S. Forest Service and Department of the 
Interior fire suppression needs. The 2020 budget assumes a preliminary 
split of $300 million of the authorized cap adjustment resources for 
Interior requirements, with the remainder allocated to the U.S. Forest 
Service. The administration will reallocate resources between agencies 
as necessary to meet actual wildfire suppression needs.
    Employees from across Interior also serve as part of Federal 
emergency response efforts. In the event of a natural disaster, our 
employees work to protect and rebuild Interior's assets, but are also 
part of the community working to help recovery. USGS scientists play an 
important role preparing for and addressing the aftermath of natural 
hazard events. USGS provides important scientific and monitoring 
information to emergency responders, policy makers, and the public to 
reduce the risk of losses from a wide range of natural hazards, 
including earthquakes, floods, hurricanes, landslides, tsunamis, 
volcanic eruptions, wildfires, geomagnetic storms, and drought. The 
2020 budget includes $145.0 million for the USGS Natural Hazards 
programs. This funding maintains important nationwide monitoring 
networks that are vitally important to emergency managers.
                      an era of energy prosperity
    By advancing common sense policies that appropriately engage in 
domestic energy development, the Trump administration is putting 
America on a path towards continued low fuel costs, high paying jobs 
and greater energy security. Under the Trump administration, crude oil 
and natural gas production has hit all-time highs, U.S. net energy 
imports have fallen to their lowest levels since 1982, with the U.S. 
becoming a net exporter of natural gas in 2017 and expected to become a 
net exporter of energy overall, including petroleum and other liquids, 
by 2020.
    Interior manages a good portion of the natural resources on 
America's public lands and waters, including oil, gas, coal, 
hydropower, minerals and renewable energy sources. The Department plays 
an important role in the Nation's future energy security and our 
overall economic well-being. Altogether, Interior's energy and mineral 
portfolio contributed an economic output of over $150 billion and 
supported an estimated 740,000 jobs nationwide. The same year, Interior 
shattered prior records in onshore oil and gas and offshore wind energy 
lease sales, and disbursed $8.9 billion in revenues to States, Tribes, 
local communities, and the U.S. Treasury, an increase of $1.8 billion 
from 2017.
    The 2020 budget requests $777.0 million in discretionary resources 
for energy-related programs across the Department. Together with permit 
fees and other mandatory funding, Interior's 2020 energy programs total 
$830.1 million. A large portion of these energy development activities 
occur on the Outer Continental Shelf. The 2020 request includes a total 
of $393.9 million to support responsible exploration and development of 
America's offshore energy resources, which remains an important 
component of the administration's energy strategy. Within this request 
is $193.4 million for the Bureau of Ocean Energy Management's (BOEM) 
oil, gas, and renewable energy leasing and exploration activities. The 
continued efforts of the Bureau of Safety and Environmental Enforcement 
(BSEE) are integral to a strong offshore energy program. The budget 
includes $200.5 million for BSEE's work to ensure safe and 
environmentally sustainable energy exploration and production. BSEE is 
committed to the continual advancement of the effectiveness of its 
inspection program, enhancing its permitting processes around greater 
quality assurance and consistency, reforming overly burdensome 
regulations, ensuring high levels of preparedness in the event of oil 
spills, and expanding the renewables program.
    The 2020 budget includes $190.4 million in current and permanent 
funding for BLM's onshore oil and gas activities, of which $137.3 
million is requested in direct appropriations. Funding will expand 
areas available for leasing, expedite permitting, and improve program 
management. The 2020 budget advances activities in Alaska and New 
Mexico, and continues work to streamline leasing processes and speed 
the review of Applications for Permits to Drill. Interior has already 
reduced wait times for these permits by 57 days (from 120 days to 63 
days). The budget will also help to expedite the processing of rights-
of-way permits needed to move energy to consumers.
    The 2020 BLM budget includes $29.1 million for renewable energy 
activities. This funding will support the review and siting of 
geothermal resources, wind and solar energy projects on public lands, 
and rights-of-way applications to connect these projects to 
transmission lines. The 2020 budget includes $19.8 million for the BLM 
coal management program focused on reducing permit processing times, 
simplifying the lease application process, and improving the timeliness 
to complete lease sale fair market value determinations. BLM's Federal 
coal leasing program supplies more than 40 percent of the coal produced 
in the United States.
    The 2020 budget for BIA includes $25.5 million for energy and 
mineral development programs in Tribal communities. Income from energy 
and mineral production is the largest source of revenue from natural 
resources on trust lands. In 2018, more than $1 billion in revenue from 
oil, gas and mineral activities was disbursed to Tribes and individual 
Indian mineral rights owners. Tribes use this revenue to develop 
infrastructure, provide healthcare and education, and support other 
critical community development programs.
    An important component of Interior's natural resource programs is 
the collection and disbursement of billions of dollars in receipts from 
development. The 2020 budget includes $147.3 million for the Office of 
Natural Resources Revenue (ONRR) to ensure Americans receive an 
accurate return for their public resources. In 2020, ONRR will continue 
to implement a critical new Minerals Revenue Management Support System 
to update and improve management and accountability of Interior's 
significant revenue collections.
           fulfilling our trust and insular responsibilities
    The Department of the Interior is responsible for fostering the 
government-to-government relationship with Indian Tribes and Alaska 
Native Villages and overseeing relations with U.S. territories and 
insular areas.
    The United States has an important relationship with the affiliated 
insular areas including the territories of American Samoa, Guam, the 
U.S. Virgin Islands, and the Commonwealth of the Northern Mariana 
Islands. With China's escalating influence in the Pacific region, 
Interior's insular responsibilities and obligations contribute 
meaningfully to broader administration policy objectives in the region. 
In 2020, the Office of Insular Affairs will implement activities to 
bolster healthcare capacity, strengthen island economies, and fulfill 
U.S. Compact obligations. The Office will also participate in foreign 
policy and defense matters concerning the U.S. territories and the 
freely associated states. The 2020 budget includes a total of $610.7 
million in current and permanent authority, with $84.1 million in 
current appropriations.
    Interior provides services directly, or through contracts, grants, 
or compacts, to 573 federally recognized Tribes with a combined service 
population of nearly 2 million American Indians and Alaska Natives. The 
Department is committed to Tribal prosperity and working together with 
Tribes to address challenges in economic development, education, and 
law enforcement. Interior supports Indian self-determination to ensure 
Tribes have a strong voice in shaping Federal policies directly 
impacting their ability to govern and provide for the safety, 
education, and economic security of their citizens. Interior's Tribal 
programs deliver community services, restore Tribal homelands, fulfill 
commitments related to water and other resource rights, execute 
fiduciary trust responsibilities, support the stewardship of energy and 
other natural resources, create economic opportunity, and provide 
access to education.
    The 2020 budget for Indian Affairs prioritizes programs that serve 
the broadest service population and addresses Federal responsibilities 
and Tribal needs related to education, social services, infrastructure, 
law enforcement, and stewardship of land, water, and other natural 
resources. The 2020 budget includes $1.9 billion for BIA, and $936.3 
million for BIE. Within this is $367.4 million to fully fund the 
estimated Contract and Tribal Grant Support Costs Tribes incur from 
managing Federal Indian programs.
    The 2020 budget takes action to improve the quality and efficiency 
of the BIE schools. In 2020, for the first time, we request funding for 
BIA and BIE separately, as part of an effort to improve overall 
transparency, accountability, and autonomy for the effective delivery 
of BIE school services. This step is consistent with direction from 
this subcommittee which began 5 years ago, urging the Department to 
consolidate all responsibilities related to Indian education under BIE. 
The changes in the 2020 budget respond to your direction and other 
longstanding criticism that the lines of authority for BIE services 
were not clear, it was too difficult to determine who had final 
accountability for delivering services, and BIE did not have sufficient 
independence to ensure school needs were met.
    The 2020 budget is the result of a detailed review within Indian 
Affairs, looking at the services provided to the BIE schools and the 
different roles of BIA, the Office of the Assistant Secretary for 
Indian Affairs, and BIE. The review considered where it made sense to 
decouple overlapping functions and where it made sense to continue 
cross-servicing to BIE with clearer agreements in place. The 2020 
request reflects this review and strengthens BIE's ability to deliver 
materials and services, carry out needed health and safety inspections, 
and ensure repairs are made. The BIE budget includes $867.4 million to 
continue core Indian education elementary, secondary and post-secondary 
programs. It also includes $68.9 million to support facility 
construction, repairs, deferred maintenance, and capital improvements.
    The 2020 BIA budget requests $1.5 billion for Operation of Indian 
Programs. This includes $409.2 million for the Public Safety and 
Justice programs providing law enforcement, corrections, and court 
services to Indian communities. The 2020 budget also includes $326.0 
million for Tribal Government programs with $178.9 million for Self 
Governance Compacts.
    The 2020 BIA budget includes $184.1 million for Natural Resources 
Management supporting resource conservation, economic use, recreation, 
and protection of Tribal resource rights. Within this amount is $54.8 
million for Tribal forestry programs which complement of the 
administration's forest management legislative reforms. The budget also 
includes $11.2 million for the Tribal Management/Development Program 
which supports Tribal management of fish and game programs on Indian 
reservations. These programs ensure the protection of millions of acres 
of habitat necessary for the conservation of fish, wildlife, and plant 
resources and significantly contribute to the economic development of 
Tribal communities and the growing national demand for outdoor 
recreation and tourism.
    The budget maintains a strong commitment to meet Tribal settlement 
agreements and includes $45.6 million for BIA Water Rights Settlements. 
At this funding level, BIA remains on track to meet current water 
settlement commitments within the legislated timeframes. Across 
Interior, the budget includes $178.6 million for Indian Settlement 
commitments.
                           government reform
    President Trump challenged Federal agencies to modernize and reform 
the executive branch and Interior is leading the way to better serve 
the American people. The absolute first step is fostering a culture of 
ethics and respect amongst colleagues. There is zero tolerance for any 
type of workplace harassment at Interior. The Department is instilling 
a culture change through clear management accountability, swift 
personnel actions, reporting procedures for harassment conduct, 
improved training, and substantive action plans. In the area of anti-
harassment efforts, each bureau and office has made significant headway 
to put a diverse set of measures in place to prevent and address 
unacceptable conduct.
    We have also launched an internal Workplace Culture Transformation 
Advisory Council across the Department to keep a focus on Interior's 
workplace environment. The Council will look at common issues raised in 
the Federal Employee Viewpoint Survey, ways to improve employee 
engagement, and building career paths that cross bureau silos; all with 
the goal to transform Interior's workplace culture for future 
generations.
    Another management priority is creating a strong ethical culture to 
ensure Interior employees honor the public's trust to manage funds 
responsibly and avoid conflicts of interest. The expectations for 
appropriate employee conduct have been made clear, and the Department 
has set goals and expectations for qualified ethics officials 
sufficient to ensure our operations are conducted ethically.
    Over many decades, the Department of the Interior experienced new 
bureaus becoming established on an ad hoc basis with their own unique 
regional organizations. This ultimately resulted in a complicated 
series of 49 regional boundaries among 8 bureaus. This complexity led 
to the situation where bureau regional leadership was focused on 
different geographic areas, did not have adequate and shared 
understanding of the needs and perspectives of regional stakeholders, 
and opportunities to share administrative capacity across bureaus were 
difficult to recognize and implement. Members of the public were often 
frustrated by problems in inter- bureau decisionmaking where 
uncoordinated timelines and processes could lead to unnecessarily long 
delays in reaching a decision. In 2018, Interior began a reorganization 
effort focused on making improvements across each of these areas.
    Interior's reorganization is driven by the need to improve our 
delivery of service to the public. The Department developed a 
reorganization strategy that relies on unified regions across Interior, 
moves some staff west to be closer to the resources and customers they 
support, improves coordination and collaboration among Interior's 
bureaus, and reviews standard administrative processes across Interior 
to find smarter ways to conduct business operations.
    Last year, Interior took the first step in the reorganization. 
After working closely with stakeholders across the country on options 
to consolidate Interior's 49 different regions into common regions, 
Interior adopted 12 unified regions for a subset of the bureaus. As a 
result of Tribal consultation, BIA, BIE, and the Office of the Special 
Trustee for American Indians will not realign their regional field 
structure.
    Establishing unified regional boundaries across bureaus is the 
cornerstone of reforms to improve Interior's service delivery to the 
public. Within each shared region, bureaus will focus work on the same 
resources and constituents and improve coordination across the 
Department. For the public, fewer regions will make it easier to do 
business with Interior, particularly when the public interacts with 
several bureaus or jurisdictions. For Interior's business, the move 
will strengthen inter-bureau coordination and understanding, joint 
problem-solving, and mutual assistance.
    Bureaus and offices have begun to work across organizational lines 
to identify ways to maximize the benefits of the new regions. In 2019, 
we are analyzing options to relocate more operations out West, where 
the preponderance of bureau assets and acres are located, to better 
serve our customers. As part of the planning, we are considering 
relative cost, accessibility, and the specific functions where it makes 
sense to be closer to field assets. We are also reexamining some of the 
Department's common business operations to leverage consistent best 
practices across Interior. In 2020, the budget requests $27.6 million 
to continue implementing the reorganization with three areas of focus: 
Implementation of the Unified Regions ($12.1 million), Relocation and 
Regional Stand Up ($10.5 million), and Modernizing Interior's Business 
($5.0 million).
                         legislative proposals
    Forest Health.--The Administration proposes a comprehensive package 
of legislative reforms to proactively reduce the risk of wildfires 
through better management of Federal forests and rangelands. The 
proposed legislation would provide categorical exclusions on Interior 
lands for active forest management, including the ability to harvest 
dead, dying, or damaged trees and proactive fuels management including 
the use of fuel breaks. These changes are much needed to help reduce 
fire risk, improve forest health, minimize after fire impacts, prevent 
re-burn of fire impacted areas, and improve safety for wildland 
firefighters.
    Public Lands Infrastructure Fund.--The budget proposes $6.5 billion 
over 5 years for a Public Lands Infrastructure Fund to address deferred 
maintenance needs in the Departments of Interior and Agriculture. 
Within Interior, the Fund will support infrastructure improvements 
through an allocation of 70 percent for national parks, 10 percent for 
national forests, 10 percent for wildlife refuges, 5 percent for BIE 
schools, and 5 percent for lands managed by the BLM. The Fund will be 
supported by the deposit of 50 percent of all Federal energy 
development revenue that would otherwise be credited or deposited as 
miscellaneous receipts to the Treasury over the 2020-2024 period, 
subject to an annual limit of $1.3 billion. Interior and Agriculture 
would prioritize projects, monitor implementation, and measure results.
    Recreation Fee Program.--The budget proposes to reauthorize the 
Federal Lands Recreation Enhancement Act, which expires in September 
2020. As a precaution, the budget also proposes appropriations language 
to provide a 2-year extension of FLREA through September 2022.
    Cancel Southern Nevada Public Land Management Act Account 
Balances.--The budget proposes to cancel $230.0 million in unobligated 
balances from the Southern Nevada Public Land Management Act (SNPLMA) 
program over a 3-year period.
    EPAct Geothermal Payments to Counties.--The budget proposes to 
restore the disposition of Federal geothermal leasing revenues to the 
historical formula of 50 percent to the States and 50 percent to the 
U.S. Treasury by repealing Section 224(b) of the Energy Policy Act of 
2005. That section changed the distribution to direct 50 percent to 
States, 25 percent to counties, and 25 percent to the Federal 
Government.
                               conclusion
    Thank you for the opportunity to testify on the President's 2020 
budget request for the Department of the Interior.
    In closing, this is a budget that prioritizes core functions 
important to the American people within budget parameters. 
Complementing this funding request is legislation to provide up to $6.5 
billion over 5 years to address the deferred maintenance backlog on our 
public lands.
    This budget advances collaborative conservation with investments in 
the America's natural and cultural resources, support for conservation 
stewardship partnerships, a focus on species recovery and proactive 
conservation activities to avoid the need for listing, and reforms to 
improve the health of our forest and rangelands and reduce risk from 
severe wildfires.
    I look forward to working with you to support the President's 2020 
budget request. I am prepared to address your questions at this time.

    Senator Murkowski. Thank you, Mr. Secretary.

                             REORGANIZATION

    Let me begin with the proposal for the reorganization 
efforts. When Secretary Zinke first came in and outlined his 
proposal, it was a pretty expansive overhaul of a pretty 
expansive Department, and I think we all listened with 
interest, not entirely sure how that was all going to unfold.
    One of the concerns that I shared with him was the fact 
that it is important that we evaluate and then reevaluate 
internal operations that go to the effectiveness of a 
Department when you are trying to do a pretty substantive 
overhaul. You have to keep the wheels on the bus of those 
agencies that every day are responding to the matters on the 
ground, whether it is the needs of our Native peoples, whether 
it is the management of our public lands, or whether it is the 
operations that go on with our insular affairs. Your Department 
is huge and vast.
    Can you share with me and the subcommittee a little bit 
more of your vision and concrete details of this 
reorganization? We read a little bit about it in the press. An 
article this morning in one of the trade journals speaks to a 
portion that is directed at the United States Geological Survey 
(USGS), obviously something that we care about, BLM, and the 
proposal to move those operations or those headquarters out 
West.
    Can you share where you are with your review, your 
analysis, the type of analysis that you have used in order to 
get you to this direction, and how you are going to proceed?
    Secretary Bernhardt. So let me start by putting the 
reorganization in context for you.
    Senator Murkowski. Great.
    Secretary Bernhardt. From my perspective, Secretary Zinke's 
reorganization vision had three different components. The first 
component was an effort to unify the various regional 
boundaries that the Department had for its senior management 
and its regional structure, and what we essentially did was 
move from 49 combinations of regional boundaries down to 12. We 
excluded from any change, the Bureau of Indian Affairs and the 
Bureau of Indian Education, but for those other agencies, they 
now have 12 common regions.
    We worked with you and your staff on that last summer, and 
actually, in August of last year, you all approved the 
demarcation of the regional boundaries.
    There is a benefit to everybody having a similar region. I 
think it allows every bureaus within the Department to be 
focused on essentially the same geographical area. And I think 
that is a good thing. I think that is a good thing for managing 
the Department overall. So we will continue to implement that.
    The second element that the Secretary was focused on was 
moving some of the headquarters elements West, and on one hand, 
I think that was driven by an interest to ensure that folks 
have a perspective on the areas that they manage and be closer 
to the ground, but the real benefit that I see from moving our 
resources out is really shoring up our local and State and 
regional offices in a way that they can provide citizen 
services more effectively and more efficiently, and prioritize 
those resources there. So we have----
    Senator Murkowski. That is not all departments that you 
would seek to relocate headquarters?
    Secretary Bernhardt. That is right, and I think it is very 
likely that when I come to you with the reorganization--or 
reprogramming request for that, which I have not done, but when 
I do, I think I will be able to delineate for you. We will 
start with BLM, and I will delineate for you the headquarters 
elements that would remain--and there would be significant 
headquarters elements remaining here because there are 
functions that have to occur here--and how we would delineate 
the staff. And I will be able to walk you through every single 
staffer in terms of slots, so that you can have a sense. And we 
will bring that up and do that relatively soon.
    The USGS, we are also considering moving elements West for 
them to be a little more centrally located. There are strong 
views in the House about that, and I respect those views. And 
we will work with you all on that.
    The third component of Secretary Zinke's proposal, since I 
am getting close to time, was establishment of a unified 
command structure in each region, and there was going to be a 
unified commander with his own bureaucracy. From my 
perspective, I am not sure that that is required.
    Every Secretary struggles in Interior to figure out how can 
we better manage and organize the Department to deal with 
issues that cross jurisdictional boundaries within the 
Department, to deal with situations that are important to 
localities or States, and where there are multiple views in 
Interior. Different models have been tried over time.
    Alaska has a model where the Secretary's office has a 
staffer in Alaska precisely to reconcile those types of things.
    There have been histories of using counselors, histories of 
using field-level assistants. I have authority to do a variety 
of things that do not require reorganization.
    I have been working with the regional facilitators who have 
been working on this for a couple years now or I guess a year 
and a half now, on a concept where senior managers in each 
region have to operate together on certain issues to ensure 
that they are all on the same page with maybe either a first 
among equal or someone being actually designated as a 
Secretarial representative.
    I do not think we need the additional bureaucracy, to be 
completely fair, and so that would mean that that would be a 
substantial change to what our request is. We still need some 
resources to make it work, but I think we could have a much 
more streamlined thing.
    There is a lot of tension between who has responsibility in 
these types of situations, and I think we can facilitate that 
through clear guidance and memos and avoid a lot of the hurdle 
associated with it.
    I am sorry to go over time.
    Senator Murkowski. I appreciate you laying the groundwork 
for that because I know there have been issues and questions 
because there just is a lot of unknown, and as long as it 
remains unknown, it worries people.
    I think my takeaway with you this morning is to make sure 
that there is this communication with the subcommittee about 
any reprogramming, and that there is a clear understanding as 
to the rationale and the analysis. We look forward to that 
back-and-forth as you are getting closer to making some 
decisions there.
    Secretary Bernhardt. I worked with your folks on both sides 
of the aisle on good faith in the delineation of the 
boundaries, and we will continue to do that. We are not going 
to surprise you in any way.
    Senator Murkowski. I appreciate that.
    Let me go to my colleague, Senator Udall.
    Senator Udall. Thank you.

                            MONUMENTS REVIEW

    Mr. Secretary, on March 27, I sent you a letter along with 
16 other Senators asking for answers on a number of questions 
that related to your position, on a number of issues related to 
monuments review performed by your predecessor, Secretary 
Zinke.
    I received a response from one of your aides, Casey 
Hammond, last week that did not even attempt to answer the 
question. So I wanted to revisit the issues again with you.
    As you know, the President has already attempted to modify 
the Bear's Ears and Grand Staircase-Escalante national 
monuments, and the Department has moved forward with certain 
activities that implement his direction.
    But Interior's 2017 report also included recommendations to 
modify eight other monuments, including two monuments in New 
Mexico, the Rio Grande del Norte and the Organ Mountains-Desert 
Peaks.
    The letter we sent you asked you to clarify that the 
Department does not intend to take any additional actions to 
implement the recommendations in the report, including actions 
to revise the boundaries or make planning changes to the two 
monuments in New Mexico I just mentioned affected by the 
review, the Rio Grande del Norte and Organ Mountains-Desert 
Peaks.
    This is really a yes or no, Mr. Secretary. Has the 
Department taken any actions to date or does the Department 
have any plans to take future actions, including making 
additional recommendations to the White House for presidential 
action that implement changes to the eight other monuments 
called for by Secretary Zinke's review?
    Secretary Bernhardt. Senator, thank you for that question.
    I am going to give you a little more than a simple yes or 
no, but I think the answer is no, and here is why. From my 
perspective, the Secretary was asked to put a report together 
by the President. He put that report together. He submitted it 
to the President. It is before the President, and I have not 
received any request to do a different report, and so I will 
not take any action on any monuments.
    The President is ultimately the holder of the pen with the 
Antiquities Act.

                      RESOURCE MANAGEMENT PLANNING

    Senator Udall. Let us move on to the issue of resource 
management planning and national monuments. I want to make sure 
you and I agree on the law.
    Is it true that the Department takes a number of preleasing 
steps before it ever issues a lease for oil, gas, or coal on 
public lands, such as undertaking a resource management plan or 
identifying areas open to leasing and associated constraints?
    Secretary Bernhardt. The answer to that is yes. It is 
generally true.
    Senator Udall. And is it not true that the BLM Land Use 
Planning Manual describes specific steps in coal and fluid 
minerals leasing as identifying areas open to leasing and 
constraints at the land use planning level? In fact, I think--
and you have said yes to this--the Secretary may not hold a 
lease sale under this part unless the lands containing the coal 
deposits are included in a comprehensive land use plan. That is 
CFR 433421.
    Do you agree that the Department considers relevant land 
use plans a necessary preleasing step prior to issuing leases?
    Secretary Bernhardt. At this time, I cannot think of an 
exception to that general rule.
    Senator Udall. Are you aware that each Interior 
appropriations bill since fiscal year 2002 has contained a 
provision prohibiting the Department from expending funds for, 
quote, ``leasing, preleasing, or related activities'' under the 
Mineral Leasing Act within the boundaries of a national 
monument as such boundary existed on January 20, 2001?
    Secretary Bernhardt. I am not familiar with that specific 
limitation, but I have no reason to doubt what you read.
    Senator Udall. The preferred alternative in the management 
plan for the Grand Staircase-Escalante monument surround and 
surrounding lands identifies opening lands removed by the 
proclamation to oil and gas and coal leasing as well as 
constraints and coal suitability determinations. As we both 
agreed, these activities are part of the Department's typical 
preleasing activities. How is this preleasing work not a 
violation of appropriations law?
    Secretary Bernhardt. Well, I do not think it is, but I will 
go look at it and----
    Senator Udall. I hope you look at it because----
    Secretary Bernhardt [continuing]. Come back.
    Senator Udall. I hope you look at it because it is pretty 
clear to me.
    Secretary Bernhardt. Roger that.
    Senator Udall. I will be asking the Government 
Accountability Office (GAO) to look into this issue and what I 
believe to be a clear violation of the Antideficiency Act. In 
the interest of the rule of law and safeguarding taxpayer funds 
from mismanagement, will you commit to halting all further 
Department work on this proposed plan until the GAO has ruled 
on this issue?
    Secretary Bernhardt. I will commit to studying the issue 
personally and coming back and tell you what----
    Senator Udall. Thank you very much, Mr. Secretary.
    Senator Murkowski. Thank you, Senator Udall.
    Senator Blunt.
    Senator Blunt. Thank you, Chairman.
    Secretary, I was going to ask about the reorganization 
plan, and all my time would have been gone. So I am glad that 
the Chairman asked about that, and we are obviously interested 
in that and going to continue to be watching that as you begin 
to put it in place.

                 STE. GENEVIEVE NATIONAL HISTORIC PARK

    You would be surprised if I did not talk about the Ste. 
Genevieve National Historic Park.
    Secretary Bernhardt. I would be surprised if you did not.
    Senator Blunt. A year ago, Chairman Murkowski and I were in 
Ste. Genevieve, and the Park Service signed six different 
agreements with the State, with the county, with the city, with 
the Foundation for the Restoration of Ste. Genevieve. We 
benefit from the fact that the community for 200 years has 
helped maintain and continue to have attention to the unique 
properties that are there.
    I know you have already required one historic property. We 
are in the process of acquiring five more historic properties 
and a building for the visitors center. I know you are working 
hard on this, and I believe I have your continued commitment to 
make it a priority.
    Secretary Bernhardt. You absolutely do, and I was told last 
night everything is going swimmingly. I said if there is a 
peep, I need to know.
    Senator Blunt. And swimmingly is the transfer of 200-year-
old houses----
    Secretary Bernhardt. Fair enough.
    Senator Blunt. Exactly. Well, everything we can do to get 
this in place. Obviously, the action of the Congress created a 
lot of attention.
    Can you tell me any of the plans you have to hire and 
develop staff for that park unit?
    Secretary Bernhardt. So we are going through that right 
now. I just brought in a new Director of Operations, David 
Vela, who you all know from his nomination process, which I 
hope will restart again soon. And he is looking at that. We are 
going to make sure that is taken care of.
    Senator Blunt. And do you have any specific----
    Secretary Bernhardt. Dates?
    Senator Blunt [continuing]. Dates or----
    Secretary Bernhardt. I really hazard to give you a date on 
a recruitment.
    Senator Blunt. You have an acting superintendent now. Do 
you think that will be the case for the foreseeable future, or 
do you have a time when----
    Secretary Bernhardt. I think we will have it resolved in 
the foreseeable future, but I think it is months, not weeks.

                       MISSOURI RIVER MANAGEMENT

    Senator Blunt. Okay. Let us talk about the river a minute. 
Since the Missouri River Management Plan in 2004, we have had a 
flood, a significant flood every year except the two drought 
years we only had a minor flood, but we have had significant 
floods.
    The Mississippi obviously is managed in a different way. It 
floods as well, but the fish and wildlife concerns on the 
Mississippi have always been looked at, I think, in 
coordination with the impact on people and property. The 2004 
Missouri River Plan really did not do that, and the river 
itself, the navigation issues on the river were ignored. A lot 
of the things that were taken out for river management were 
taken out hoping that there would be positive impact on 
wildlife, particularly on birds and fish, but none of that has 
really worked.
    In fact, the Corps has gone back and decided not to do more 
of what it had already done because what it had already done 
was not working.
    I guess what I have told the Corps and what I would like to 
repeat to you is, if there are actions that you know have a 
negative impact on people and you do not know will have a 
positive impact on fish and wildlife, do not do them until you 
know they have a positive impact.
    This is an important time, I think, to revisit the River 
Management Plan, and I am wondering if you have any thoughts on 
fish and wildlife elements of that or why the Mississippi River 
appears to be managed on a dramatically different standard on 
these issues than the Missouri River.
    Secretary Bernhardt. Well, it is my hope that they are 
managed upon the same legal standard because the legal 
standards should be the same and on paper.
    We are in a process right now of modifying our--what are 
called our Section 7 regulations for the Endangered Species 
Act, and I think those will be done sometime this summer.
    I think once those are done, it would be useful to sit down 
and have a discussion about whether those might change the 
scope of a consultation and whether it would be a good idea to 
reinitiate consultation with the Corps of Engineers.
    So that is right around the corner, and I would be happy to 
visit with you more about that.
    Senator Blunt. When do you expect those to be out for 
comment?
    Secretary Bernhardt. I think we have already taken comment, 
so they will be out in final. I would expect them out no later 
than July.
    Senator Blunt. Good. All right. I will look at that, and I 
think we will be talking. I want to talk to you about that and 
how it might impact a second look at the Missouri River 
Management Plan.
    Thank you.
    Secretary Bernhardt. Look forward to it.
    Senator Murkowski. Thank you, Senator Blunt.
    We will now turn to the Vice Chairman of the full 
Committee, Senator Leahy. Welcome.
    Senator Leahy. Well, thank you very much, Senator 
Murkowski.

                 FREEDOM OF INFORMATION ACT REGULATIONS

    Secretary, glad to see you here. Let me go into an area 
that concerns me. We had a bicameral, bipartisan, Republicans 
and Democrats, both House and Senate, group that expressed 
concern with the Department's proposed rule to revise its 
Freedom of Information Act (FOIA) regulations. I know you are 
expecting this question. I thought the rule would seriously 
undermine the letter and spirit of FOIA and dramatically 
restrict the public's ability to obtain information.
    In our letter, which was addressed to you, not to the 
Department, we asked the Department to go back to the drawing 
table, reconsider the proposed rule.
    Now this morning, there are reports that the Interior 
Department has allowed political appointees to referee 
responses to FOIA requests, to interfere in them, something 
that raises real questions of illegality, going into everything 
including from previous Secretary Zinke who had a different 
view, I think. I hope your view of the Department of the 
Interior is different than his. His was so political that on 
the day of John McCain's funeral, all of us on the bus of 
Senators, Republicans and Democrats, noticed there was only one 
Federal building that we went by that had not lowered its flag 
in respect to John McCain. That was the Department of the 
Interior, the same Department where they were ordered to raise 
a personal flag for Mr. Zinke when he walked in, but the only 
Federal building that did not lower their flag in respect to 
John McCain.
    But let me ask you this. What is the legal basis for the 
Department's so-called awareness review process by which 
political appointees who are not in the traditional FOIA office 
are given the opportunity to weigh in and potentially influence 
responses to FOIA requests? Is there a legal basis for that?
    Secretary Bernhardt. Well, there is certainly a legal basis 
for the employees to be made aware of the FOIA documentation or 
the response documentation that is coming out.
    Senator Leahy. I am talking about the people who are 
experts in FOIA, and now they have political appointees coming 
in telling them what they----
    Secretary Bernhardt. So, first off, it is a process. It is 
very longstanding in the Department. What is different is that 
a memo was put together to explain it. But it is very 
longstanding in the Department where an awareness review is 
provided. You get to look at the documents, say, hey, is there 
anything in here that might not be responsive, might be 
privileged, and then you can go ask a lawyer about it.
    That is a longstanding process. We definitely formalized 
it. It is completely legal.
    What is troubling to me when I read that article this 
morning was the concept that it would be slowing the reviews 
down because that is not what the policy says. The policy says 
basically you have a certain amount of time, and these go out.
    Senator Leahy. You can still get out on time, but I am 
concerned not so much slowing down, but changing so that it is 
not an honest answer.
    Secretary Bernhardt. Well, the issue----
    Senator Leahy. We have----
    Secretary Bernhardt [continuing]. If it is responsive, it 
is going out.
    Senator Leahy. Well, we expressed our concern about the new 
rule. Sixty-five thousand public comments. Sixty-five thousand 
public comments were submitted about it. Why not just 
reconsider the proposed rule and rewrite it?
    Secretary Bernhardt. So I think that I am deciding that 
now. First off, to me, it was very significant that you did 
send a bipartisan letter with such strong and focused views.
    Of the four concerns that you raised, I think that you made 
four very specific and good points, and so I am considering 
whether we should scrap it, whether we should proceed with it, 
or whether we should significantly modify it.
    Senator Leahy. I hope you will keep us posted on that.
    Secretary Bernhardt. I would be happy to----
    Senator Leahy. Most Senators, I found in both parties, who 
cross the political spectrum believe in FOIA and having it 
work.
    Senator Cornyn and I have strongly pushed that in both 
Republican and Democrat----
    Secretary Bernhardt. And I appreciate that. I believe that 
FOIA is an important vehicle.
    To be completely candid with you, some of the changes in 
the 2016 Act create significant and different burdens, and so 
it is trying to figure out how to optimize those burdens in the 
right and most responsible way, how to give some people some 
response instead of just having them queued forever, and so 
this is a process that was put together by some extraordinarily 
good career lawyers.
    And my view is we will either come out with a very 
responsive policy or we will not move forward.
    Senator Leahy. Okay.
    Secretary Bernhardt. And I appreciate your views on it.
    Senator Leahy. Well, keep me posted on that.
    My time is up, but I am going to submit for the record, if 
I might, Madam Chair, a question about the National Park 
Service's modifying longstanding procedures to nominate 
properties to the National Register of Historic Places.
    I mention that because it is not just a perfunctory 
question. This is very real to me, and I would hope that you 
would look at the question and give me a response.
    Secretary Bernhardt. I will respond to it, Senator. I will 
respond to it.
    Senator Leahy. Thank you.
    Thank you, Madam Chair.
    Senator Murkowski. Of course, Senator Leahy, your question 
and all questions submitted for the record will be incorporated 
as such.
    Senator Daines.
    Senator Daines. Thank you, Chair Murkowski.
    Welcome, Secretary Bernhardt.
    I want to tell you, first of all, I very much appreciate 
the Department's proposed funding for the North American 
Wetlands Conservation Act (NAWCA) as well as these other 
conservation grants.

                    LAND AND WATER CONSERVATION FUND

    However, the proposed budget cuts for funding for the Land 
and Water Conservation Fund (LWCF) program frankly were a slap 
in the face to Congress.
    Here, the Senate just passed that great bipartisan lands 
package, which included in that was a permanent authorization 
of LWCF, and the numbers that came frankly from the 
administration were very, very disappointing.
    I can tell you I will continue to fight for full dedicated 
funding for LWCF. It is a critical tool. Seventy percent of 
Montana's fishing access has been funded through LWCF. We need 
this also to provide access to our public lands.

                               HARASSMENT

    I want to pivot now and talk about national parks. As we 
have discussed before, two of my biggest priorities as Chairman 
of the National Park Subcommittee are addressing the growing 
Park Service maintenance backlog and eliminating workplace and 
sexual harassment. I believe unless we act decisively on both, 
we risk losing the qualities that make our national parks so 
unique.
    I recently met with the new Yellowstone Park 
superintendent, Cam Sholly. He is off to a great start. I am 
pleased to have him there, as he is working to build a better 
workplace environment.
    As you know, the Park Service has been plagued with sexual 
and workplace harassment issues over the years passed. I have 
seen some positive movement lately, but we cannot let up on 
this issue.
    The question, Secretary Bernhardt, could you update me on 
what you as Secretary are doing to address this problem in the 
parks as well as throughout the Department?
    Secretary Bernhardt. Senator, first off, let me acknowledge 
that there is much more to do on harassment across the 
Department, but what we have done over the last year has really 
been unprecedented.
    We established an anti-harassment policy. I worked with the 
bureaus to develop a pathway for each of them, and they are 
implementing that.
    We are at a point now where we have mechanisms in place to 
track how these matters are handled. We are providing civil 
treatment for leaders training across the board. We have just 
established a Workplace Cultural Transformation Advisory 
Committee within the Department, and so we have taken a lot of 
steps and a lot of steps in a relatively short time, and so I 
think we have done a tremendous amount.
    There is more to do. I have asked the IG to look at what 
more is out there, and I think they will have some additional 
suggestions. But we are making real progress.
    Senator Daines. Thank you. Leadership on this issue begins 
at the top, and I want to thank you for your focus on it. We 
cannot let up. We have got, I think, some momentum here. Thank 
you for continuing to lead in that area.

                      DEFERRED MAINTENANCE BACKLOG

    On the backlog issue, Congress is taking action on the Park 
Service backlog, this bipartisan Restore Our Parks Act. My 
question for you is, what is the Department doing to address 
the growing debt of this maintenance backlog?
    Angus King describes backlog as debt. I think it is the 
right way to think about it.
    What is the Department doing to address this issue?
    Secretary Bernhardt. So our budget has about $640 million 
in it for maintenance backlog, but we also have the bill. And 
this is the one thing. When I went through my confirmation 
process, every single member on both sides of the aisle that I 
met with seemed supportive of the notion of addressing the 
maintenance backlog, Senator Alexander, others, and we have to 
find a legislative way to address it.
    We have our proposed fund that is part of this bill, and 
obviously, you have the Restore the Parks Act. We have to make 
progress on this, and our infrastructure is just simply 
deteriorating. There is no other way to say it. It is crumbling 
beneath our feet, and people love the parks. They are going to 
continue to come.
    We have fees, but we have to address the maintenance.
    Senator Daines. Thank you. Thanks for your support of that 
legislative action.

                         CATEGORICAL EXCLUSIONS

    Last question. Now it is almost the end of May. We are 
gearing up for wildfire season in places like Montana. Your 
Department along with Secretary Perdue have offered some 
legislative proposals to reduce red tape, including categorical 
exclusions. I support giving our land management agencies all 
the tools necessary to quickly and effectively protect our 
communities from catastrophic wildfire.
    One effort I am working on is facilitate more statutory 
flexibility to treat forest lands around roads through 
categorical exclusions that would help reduce human-caused 
fires--I believe over 90 percent occurs sometimes within a mile 
of roads--provide faster access to the fires for firefighters, 
healthier forests, and more logs to mills.
    Question. There is a myth. There is a myth that the public 
is not involved when a CE is used. Can you correct the record 
and discuss how Interior does in fact seek public input when 
using categorical exclusions?
    Secretary Bernhardt. Absolutely. We go through a public 
process to establish the categorical exclusion, and then we 
provide opportunities as we utilize them as appropriate. So 
there is a process.
    We just did a categorical exclusion I will be announcing 
today. It is not on fire, but it is the first categorical 
exclusion Reclamation issued in 30 years. We went through a 
process.
    Whether it is working with you legislatively, we would like 
to find a way to have a few more tools in our toolbox because 
the situation is not good, and people just need to honestly 
recognize that.
    Senator Daines. Thank you, Mr. Secretary.
    Senator Murkowski. Thank you, Senator Daines.
    Senator Merkley.
    Senator Merkley. Thank you, Mr. Secretary.

                            CARBON EMISSIONS

    When you breathe in a lung full of air, does it have more 
or less carbon in parts per million than when you were born?
    Secretary Bernhardt. It has more.
    Senator Merkley. Do you have a sense of what percent more?
    Secretary Bernhardt. I do not want to hazard a guess and be 
wrong.
    Senator Merkley. Well, it is about 27 percent more because 
we looked up your birth date. For me, it has hit 33 percent. 
That is a tremendous amount of increase in a single human 
lifetime, never experienced by humans on this planet ever 
before.
    And we just hit a high a few days ago of 415 parts per 
million. It was not that long ago, we were talking about how 
dangerous it would be to exceed 350.
    Now, you were asked by the House whether you lose sleep 
over the issue of carbon pollution and climate, and you said 
no. And I am very struck----
    Secretary Bernhardt. That is not accurate. I was not losing 
any sleep to the 415 parts per million. It was not a general 
climate question. That is just a fact.
    Senator Merkley. I have not lost any sleep over it, 
unprecedented levels of carbon pollution.
    Secretary Bernhardt. That is not what the question was. It 
was----
    Senator Merkley. Are you losing sleep over the 
unprecedented levels of carbon pollution?
    Secretary Bernhardt. The question was am I losing sleep----
    Senator Merkley. I am not asking what the House question 
is; I am asking you the question now for the record.
    Secretary Bernhardt. I think the Department and I are very 
committed to dealing with----
    Senator Merkley. Okay. I am not interested in your----
    Secretary Bernhardt [continuing]. Issue associated with the 
climate----
    Senator Merkley. Excuse me. But you are not answering the 
question. It is a yes-no question. I take it the answer is no. 
Is it a yes or no?
    Secretary Bernhardt. I am certainly concerned that carbon 
pollution----
    Senator Merkley. Okay. Let me put it--let us put it 
differently.
    Secretary Bernhardt [continuing]. Is increasing.
    Senator Merkley. The folks in Puerto Rico suffered a 
hurricane that was much more devastating because of the higher 
temperatures of the ocean water that gave it energy, and 
estimated by the Puerto Rican government, 3,000 people dead, 
and $90 billion in damage. Do you lose sleep over that?
    Secretary Bernhardt. I absolutely lose sleep over the fact 
that we may not appropriately respond to crisis incidents, 
unquestionably.
    Senator Merkley. It is not a crisis. It is a catastrophe 
caused by carbon, which you are promoting.
    How about Paradise, California? They suffered the campfire; 
85 people died. Other people drive out through an inferno 
because of the changes in the forest conditions driven by 
carbon. Do you lose sleep over their deaths?
    Secretary Bernhardt. I absolutely believe that we need to 
be more aggressive in our forest management practices. I 
believe that we need to----
    Senator Merkley. That was not the question, but you can 
give that answer to somebody else, if you do not want to answer 
the questions I am giving.
    Folks in Houston suffered Category 4 Harvey. One hundred 
and seven people died, $125 billion of damage driven by carbon 
pollution. Do you lose sleep over that?
    Secretary Bernhardt. I certainly was--I lost sleep 
addressing that particular situation.
    Senator Merkley. Do you lose sleep over the carbon 
pollution that is driving it?
    Secretary Bernhardt. I think it is an issue that needs to 
be addressed, but I do not lose sleep over it.
    Senator Merkley. Well, I am sorry you do not lose sleep 
over it because you should because in this generation, we are 
dramatically transforming the planet.
    In Oregon, we already have had five significant fires this 
year. This is May. This is not what we think of as fire season. 
We are now starting to see a fire season that is 2 to 3 months 
longer than it was.
    Oregonians are losing sleep over fire, not just because the 
forest burned, because of the smoke damage and all the impacts 
on our economy throughout the State.
    I lose sleep over seeing a picture of a lake in Alaska 
boiling in a robust boil with methane bubbling up out of it. Do 
you lose sleep over that?
    Secretary Bernhardt. I certainly think that we have to 
study closely our changing----
    Senator Merkley. No, that is not the question. Do you lose 
sleep over it?
    Secretary Bernhardt. I lose sleep over whether I am going 
to make----
    Senator Merkley. I am asking you to answer my question, not 
you pontificating on some other topic.
    Secretary Bernhardt [continuing]. Whether some 
infrastructure exists----
    Senator Merkley. Do you lose sleep over the fact that the 
Blue Water feedback loop in the Arctic is greatly accelerating 
the speed in which it grows warmer?
    Secretary Bernhardt. I certainly want to know as much about 
that as possible.
    Senator Merkley. Okay. So here is the thing. The policies 
you are promoting are doing enormous damage to our planet. Your 
grandchildren----
    Secretary Bernhardt. I----
    Senator Merkley. Excuse me. Do not interrupt me.
    Your grandchildren, your great grandchildren are going to 
live in a planet deeply compromised by the policies you are 
promoting. That is an immoral thing to do to the generations to 
come, and I would hope that you start thinking about that, 
maybe lose some sleep, and maybe decide you are going to be 
part of the solution rather than part of the force driving the 
catastrophe.
    Senator Murkowski. Let us go to Senator Hyde-Smith, please.
    Senator Hyde-Smith. Thank you, Madam Chairman.

                       DOUBLE-CRESTED CORMORANTS

    Mr. Secretary, Mississippi leads the Nation in farm-raised 
catfish production, which supports thousands of jobs and 
contributes hundreds of millions of dollars to the State's 
economy annually.
    Catfish production is an important component of the 
Southern economy, and it accounts for roughly 70 percent of 
U.S. finfish production.
    Avian predation and aquaculture has become just a serious 
problem as catfish ponds provide a constant and readily 
accessible supply of forage for the birds. The extent of fish 
loss is to double-crested cormorants, the key predator on 
catfish.
    They are estimated to cost industry as much as $80 million 
each year. So this is a huge problem in Mississippi.
    To comply with the 2016 court order, the U.S. Fish and 
Wildlife Service removed regulatory provisions that allowed the 
take of double-crested cormorants at aquaculture facilities. 
While I sincerely appreciate your Department's efforts to 
provide alternative options to catfish producers, such as 
issuing individual permits, the application process is very 
time consuming, and the number of cormorants that can be 
lethally taken annual is capped.
    In short, our catfish farmers are hurting. I understand the 
U.S. Fish and Wildlife Service is conducting an environmental 
assessment in order to reinstate the general depredation orders 
for cormorants. What is the status of the environmental 
assessment pertaining to the cormorants? Does the fiscal year 
2020 budget request recommend adequate funding to ensure this 
and other important environmental reviews can be executed 
swiftly and effectively?
    Secretary Bernhardt. So I am hoping we actually finish it 
before we would need this particular budget, but let me get 
back to you on the specifics.
    We can certainly complete it. There is no question about 
that, but we should be able to complete it far faster and we 
want to make sure we have the resources, and I would love to 
call you this afternoon. And I will tell you exactly where we 
stand, but I think we are in pretty good shape. Margaret 
Everson is on top of that one.
    Senator Hyde-Smith. Thank you. That sounds very good and 
promising.

                         HISTORIC PRESERVATION

    And, Mr. Secretary, the National Park Service manage grants 
to help preserve historically significant Civil Rights sites, 
including several in Mississippi. Will you discuss the 
importance of this grant program and future plans to continue 
the important work of preserving these sites?
    Secretary Bernhardt. Well, I think these sites are part of 
the American story, and they are important. And, you know, we 
have been pretty aggressive of highlighting certain sites.
    There are certain sites that were in the Public Lands Act 
as well, and we will work with you on that.
    Senator Hyde-Smith. Great. Thank you very much.
    Secretary Bernhardt. Thank you.
    Senator Murkowski. Thank you, Senator.
    Let us go to Senator Tester, please.
    Senator Tester. Thank you, Madam Chair, and thank you for 
being here today, Secretary Bernhardt. I appreciate your 
appearance and justification of a budget that is a proposal, 
but nonetheless, it is a proposal that I am very concerned 
about.

                    LAND AND WATER CONSERVATION FUND

    Look, it has been said that the Land and Water Conservation 
Fund is the best conservation tool the Federal Government has 
to offer. I will not expect you to agree with that, but you 
have got to admit it is pretty darn effective, correct?
    Secretary Bernhardt. I am--I support----
    Senator Tester. Bit fan?
    Secretary Bernhardt [continuing]. The Land and Water 
Conservation Fund.
    Senator Tester. Okay.
    Secretary Bernhardt. I am thrilled that you reauthorized 
it.
    I understand that our budget does not reflect that in your 
minds. I have been taken to the woodshed for it.
    I do think I have a chance, now that it is permanently 
authorized, to make another pretty good fight in the next 
budget, but I know that does not come----
    Senator Tester. Yes. Well, I mean, just to be honest, it is 
at zero in your budget.
    Secretary Bernhardt. I know.
    Senator Tester. It is not even----
    Secretary Bernhardt. I know.
    Senator Tester. Okay. So if you are for it--I know your 
predecessor was for it. Did Mulvaney cross it out? I mean, how 
does it go to zero if you are the Secretary?
    Secretary Bernhardt. Well, it is quite a thing to go 
through that process. But overall, we ended up overall with 
$925 million more than the 2019 request.
    Senator Tester. Yes. But----
    Secretary Bernhardt. And we got the park maintenance 
backlog.
    Senator Tester. I got it.
    Secretary Bernhardt. But I understand you----
    Senator Tester. I have got it, but I am of the belief--and 
you can agree or not; it does not matter--that this funding is 
more important now than ever before, and this program has been 
around for almost 50 years because I think these ecosystems are 
going to go away. And I think it is incumbent upon us to get it 
funded not at zero, not at half, not at 600, but at $900 
million, which is what it was first established at. It is worth 
far less now than it was when it was first----
    Secretary Bernhardt. I think there have been 2 or 3 years 
where that----
    Senator Tester. Yes. When it has hit $900 million, but 
otherwise not. But I think that is where we should be because I 
honestly will tell you that without, they go away. I would hope 
that--because we were here last year, and Ryan came in and 
talked about how he supported it. But the numbers still stunk.
    And I got it. You are doing some stuff for parks, and you 
need to be congratulated for that. But on the other side of the 
coin, LWCF at zero is beyond not acceptable.
    Secretary Bernhardt. I initiated a policy that every dollar 
we spend for access or for new acquisition has to include 
public access as a----
    Senator Tester. I think that is good, and I appreciate it.
    Secretary Bernhardt. We share that purpose.
    Senator Tester. Yes, absolutely. I agree with that.

                       BLACKFEET BADGER-TWO CASE

    I am not an attorney; you are. And so I just had a couple 
questions with Badger-Two, and these are straight up, no agenda 
behind them. But the appeal was dismissed, and the Department 
said that the interveners have no standing. Is it possible to 
bring that case back up again?
    Secretary Bernhardt. I think that, ultimately, the Attorney 
General makes the specific legal filing.
    Senator Tester. But as an attorney--and I am asking this 
honestly.
    Secretary Bernhardt. I would have to look and see whether 
it was dismissed with prejudice or not. I honestly do not know.
    Senator Tester. But do you believe if it was not, then it 
can be brought back up again by the Department?
    Secretary Bernhardt. If it was dismissed without prejudice. 
I would have to look at it. I am happy to look at it and get 
back to you on it.
    Senator Tester. Okay. Well, I think that is an important 
point if we are going to deal with Badger-Two, as we both know 
is pretty sacred ground, especially for the Blackfeet. And it 
is something that I am okay with your plan, but the plan has 
got to work. And it cannot box things out.
    Secretary Bernhardt. I understand that.
    Senator Tester. Okay.
    Secretary Bernhardt. I mean, I think you have to win in the 
Court of Appeals.
    Senator Tester. No doubt, but if we have blocked ourself 
out of going forward with that at a later date, I think we have 
made a mistake, okay?
    Secretary Bernhardt. Roger that.

                          RURAL WATER PROJECTS

    Senator Tester. Okay. Rural water projects, it is kind of 
like the Land and Water Conservation Fund. In 1998, I ran for 
the State legislature. The project in North Central Montana, if 
my memory served me correct, was 100 million bucks. The one in 
Northeast was about the same. Those projects now are four times 
that much, maybe more, maybe six times that much.
    The funding level in this budget is not where it needs to 
be, and by the way, both those water projects have impacts upon 
Tribal water compacts that have been passed long ago.
    I had the same fight with the previous administration, and 
I am sure it was the same thing in the Bush administration and 
the same thing probably in the administrations of Clinton and 
before that. How are we ever going to get these projects done 
if we are going to fund them at a pittance? It is not zero, not 
like the Land and Water Conservation Fund, but it is pretty 
darn close in the overall scope of things.
    Secretary Bernhardt. Look, I really appreciate it. I began 
my career working on a water rights settlement as a lawyer, and 
it is fantastic when they get done. But it is a long road, and 
I understand that immensely.
    Senator Tester. Okay.
    Secretary Bernhardt. We want to resolve them and bring them 
up here and have you resolve them because they matter to 
communities immensely, and I appreciate that.
    Senator Tester. The chairwoman and Ranking Member have 
heard me say this before on other issues, but if they are the 
right thing to do and you do not fight for them, it is pretty 
hard. It is really pretty hard.
    Secretary Bernhardt. Fair enough.
    Senator Tester. Thank you very much for being here, Mr. 
Bernhardt. Thank you.
    Secretary Bernhardt. Thank you.
    Senator Murkowski. Thank you, Senator Tester.
    Senator Alexander.
    Senator Alexander. Thank you, Madam Chair.
    Mr. Secretary, welcome. Glad to have you here.

                    LAND AND WATER CONSERVATION FUND

    I want to associate myself with the concern of Senator 
Tester, Senator Daines, most of us have mentioned in support 
for the Land and Water Conservation Fund.
    I was chairman of President Reagan's Commission on 
Americans Outdoors in 1985 and 1986, and we reaffirmed support 
for that, which started 20 years earlier under the Rockefeller 
Commission in the 1960s. And I think we took, under Senator 
Murkowski's leadership, a tremendous step forward in 
reauthorizing permanently the Land and Water Conservation Fund. 
And I for one am ready to see that every year, we fund it at 
the $900 million that we said we would a half century ago 
because the deal is that you put an environment burden--and 
that is drilling for oil--and you compensate for that with an 
environment benefit. And that is $900 million a year for Land 
and Water Conservation Fund.
    So I support that and will continue to do that, but I like 
the principle of catching people doing things right, and let me 
catch you doing something right by talking about something else 
that has broad bipartisan support, which the Chairman mentioned 
in her opening remarks, which is the Restore Our Parks Act.

                       THE RESTORE OUR PARKS ACT

    Am I correct that in the President's budget, there is a 
provision for $6.5 billion for the Restore Our Parks Act?
    Secretary Bernhardt. That is right.
    Senator Alexander. And am I correct that this is the first 
administration that has been willing to fund deferred 
maintenance in exactly that way?
    Secretary Bernhardt. I am certain of that.
    Senator Alexander. I am certain of that too.
    And I am certain also that if we did not have that kind of 
support from the administration that we would never have a 
chance of success with this, and the success is that we have 37 
Senate cosponsors--26 Democrats, 11 Republicans. We moved ahead 
with it last year, and it should be the bill that has the best 
chance of passing Congress this year with the broadest support.
    Can you think of any way you can defer--you can deal with 
the deferred maintenance issues in the Great Smokey Mountains 
and the other national parks without some extraordinary funding 
solution like this?
    Secretary Bernhardt. I believe it will never happen unless 
we do something like this.
    Senator Alexander. And you have said it before, but I want 
to ask you again. The administration has this in its budget, 
and it has your full support and the President's support; is 
that correct as well?
    Secretary Bernhardt. That is absolutely correct.
    Senator Alexander. Okay. And will you work with us to try 
to develop a way working with our leaders, like the Chairman 
and Ranking Member who are both here, both very interested in 
national parks, and the House to try to pass that this year?
    Secretary Bernhardt. I am begging to.
    Senator Alexander. Thank you very much.

               JAMES K. POLK PRESIDENTIAL HOME STUDY ACT

    I want to ask you quickly about the James K. Polk 
Presidential Home Study Act. I am again indebted to the 
Chairman and Ranking Member and others for the lands bill 
because that took another step toward taking this home of what 
many consider a near great President and putting it as part of 
the National Park Service. I say near great because only three 
or four are considered great, three or four near great, and 
then there are the rest.
    [Laughter.]
    Senator Alexander. So Polk is way up there, not just in the 
opinion of Tennesseans, but in the opinion of historians who 
study such things. And the Polk Home, which is not part of any 
governmental operation, has 1,300 artifacts and original items 
from the President's years in Tennessee and Washington. He is 
most notably remembered for helping to acquire 800,000 square 
miles of territory during his administration.
    You and I have discussed this before. The Lands Package 
said that the Polk Home is ``conclusively nationally 
significant,'' and so now it is time to have a special study to 
move toward making it a part of the National Park Service. Will 
you commit to putting a priority on that special study for the 
Polk Home?
    Secretary Bernhardt. I can tell you that they got a pretty 
swift kick yesterday to get going on the study. So I am pretty 
sure that that prioritization has already happened.
    Senator Alexander. Thank you very much, Mr. Secretary.
    Thank you, Madam Chairman.
    Senator Murkowski. Thank you, Senator.
    Senator Rubio.
    Senator Rubio. Thank you. Thank you for being here.
    I do not have any homes for you to study, but we should. 
Florida, unfortunately, has not been successful in electing a 
President. We tried, but----
    [Laughter.]
    Senator Rubio. Two people going, and it did not work out.

                      EVERGLADES RESTORATION PLAN

    First of all, let me start by thanking you. I think the 
President amending his budget request to the full $200 million 
for the Everglades is extraordinary, and this is not just an 
environmental project. It most certainly is--it is intricately 
tied to all of the water issues, which have an extraordinary 
economic impact on the State.
    You are the chair of the South Florida Ecosystem 
Restoration Task Force, and we have a very united delegation. 
In fact, I wanted to thank our delegation in the House 
yesterday for getting that in there, their appropriations 
process.
    And so we look forward to working with you to ensure the 
expedited implementation of the Comprehensive Everglades 
Restoration Plan, as you are well aware and we have discussed, 
the Federal Government has fallen behind in its commitment. The 
State of Florida has lived up to it.

                           OFFSHORE DRILLING

    But there is a second issue that we have spoken about and 
previously discussed at length, and that is the offshore 
drilling potential off the coast of Florida. As we have 
discussed in the past, I do think when it comes to Florida, 
there are some special considerations before determining where 
drilling and where exploration should be able to take place.
    Let me start by saying I am an enormous supporter of 
America energy independence. I think we have seen both the 
economic and geopolitical benefits of it, and that is why last 
year, I voted alongside the Chairwoman to allow exploration in 
designated areas of the Arctic National Wildlife Refuge. It is 
my belief that this Nation's status as a net importer of energy 
had constrained our foreign policy options for way too long, 
and Alaskans were clearly interested in the economic 
opportunities available to them from this.
    The situation in Florida is different, number one, and I 
think it would be very wise, as we have discussed, for the 
administration to recognize the difference.
    First of all, among Floridians, there is virtually no 
support for drilling off the coast of Florida. There is none 
among our delegation. There has been none among any leading 
statewide political officeholders for as far as I can remember, 
and I have not seen any public polling on it recently, but I 
assure you, it would not do well. And there is a lot of reasons 
behind it. One of it is our coastal economies. Literally, the 
entire economy of much of coastal Florida is directly related 
to access to the water, and that includes our fisheries.
    The other is one that people may not be as aware of. It is 
military readiness. As you know, out in the Eastern Gulf, we 
have a very unique test range that is utilized by the U.S. 
military. We have nothing else like it domestically, and there 
is real concern about anything--put it to you this way. The 
military does not want anything down there they cannot blow up 
because it is a very valuable test range.
    And you add to that, the fact that there are ample oil and 
gas reserves already available for leasing and extraction 
activities, both on land and offshore. As you can see, we are 
now set to become a net energy exporter by next year, and that 
is why I support, at a minimum, an extension of this 2006 
congressional moratorium on drilling activities beyond 2022 in 
the Eastern Gulf.
    So if we put aside for a moment the environmental and the 
economic concerns, the one thing that does concern me is that 
it is clear the administration believes that the military 
training and weapons testing occurring in the Joint Gulf Range 
Complex can coexist to some degree with drilling and related 
activities.
    The military leaders I have spoken to have all said that 
they do not agree with that view.
    So I think the first question I would have is, if it comes 
down to a final decision and we have this intractable conflict 
in the Eastern Gulf between the Interior Department and the 
Secretary of Defense, how in your view is that issue resolved, 
and who wins out?
    Secretary Bernhardt. So, first off, I really appreciate the 
question and the information, and we have talked about these 
issues a little bit in the past.
    In terms of the defense issue, I do not think there would 
ever be an intractable conflict, and the reason I say that is 
we work very closely with Defense, and to the extent they have 
told you a view, I cannot imagine a situation under our current 
MOU where they would have an interest and we would be in a 
conflict. And to the extent that that existed, it would have to 
rise to my, I guess, and the Secretary of Defense's paradigm to 
work out.
    But I do not believe for a minute that Interior would ever 
get to that situation. We take the military issues very 
seriously. We listen to them very closely about their needs, 
and I just do not see that happening.
    Senator Rubio. Okay. Thank you.
    Senator Murkowski. Thank you, Senator Rubio.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Madam Chairman.
    Welcome, Mr. Secretary.
    And just to follow up briefly on Senator Rubio's line of 
questioning, as I understand it, the Department has delayed its 
efforts to open pretty much the entire Atlantic Coast to 
drilling, delayed not by choice, but because of a series of 
lawsuits that have been filed. But my question is, Can you 
confirm that that is all on hold for now?
    Secretary Bernhardt. That decision rests with me, and I saw 
the litigation playing out and saw the court decision. I wanted 
to hold off to figure out exactly the best pathway forward.
    That is on me, and I am holding that for the time to figure 
out the best litigation pathway and then how that affects our 
plan because if we guess one way or another with the District 
Court decision, we are in Court of Appeals, and then we are 
wrong, that is a lot of work. This is a big process, and so I 
have paused it until I figure out the pathway. So it is on me, 
and I admit that.
    Senator Van Hollen. Well, I am glad you paused it. I hope 
you will permanently pause it.
    I will say Secretary Zinke, when I asked him about this at 
a previous Appropriations Committee hearing, provided pretty 
strong assurances that we would not be opening Maryland's 
section of the coast. But my view is--well, that was after the 
President talked about not opening Florida, and it became such 
a political game.

            WELL CONTROL RULES AND MIGRATORY BIRD TREATY ACT

    Let me move to something else. I am very alarmed by the 
proposed new regulations that weaken the well control rules 
that were put in place after the 2010 Deep Water Horizon 
explosion off the Gulf of Mexico, especially weakening the 
requirements for oil companies to test fail-safe devices called 
``blow-out preventers.''
    As you may know, the American Petroleum Institute had 
pushed for some of the changes that you have now made during 
the original review, and a bipartisan commission had 
recommended that the API rules not be adopted because they were 
not strong enough.
    I will be following up with you on that as we watch those 
regulations go through the process.
    At the same time that you have taken action that, in my 
view, increase the risks of big oil spills, you have also 
undertaken a legal opinion, solicitor's opinion, an M-Opinion 
with respect to the Migratory Bird Treaty Act, which would 
eliminate the liability under that act for the mass killing of 
birds in cases like the Gulf of Mexico oil spill.
    In that spill, BP paid $100 million in fines. Under the 
Migratory Bird Treaty Act for the loss of the killings of 
migratory birds, those funds went into the North American 
Wetlands Conservation Funds.
    So why is it Mr. Secretary that you have decided to give a 
pass to big oil companies and BP when it comes to liability 
under the Migratory Bird Act?
    Secretary Bernhardt. First off, I have not given them a big 
pass.
    I think that when you look at that opinion and the dynamics 
around it, it is difficult. I was a solicitor at one time, and 
I suspect that almost every solicitor at one time or another, 
depending on perspective, was asked to look at the Migratory 
Bird Treaty Act, its application of strict liability for 
incidental take, and the split in the circuits on it.
    The reality is that I think that opinion was issued 10 days 
before the end of the administration. When they took a look at 
it----
    Senator Van Hollen. Mr. Secretary, is that--you are arguing 
that that is reason to reverse it?
    Secretary Bernhardt. No. I am saying it is absolutely not a 
reason to reverse it.
    But what it did mean is that the folks that drafted it were 
not going to have to have any responsibility in implementing 
it.
    When we looked at it, there was clearly a split in the 
circuit.
    Senator Van Hollen. Mr. Secretary, I am sorry. I see my 
time is running out.
    I would point out when you were solicitor, I think I have 
got a list of about five regulations that you issued in the 
last 5 days.
    Secretary Bernhardt. Absolutely.
    Senator Van Hollen. So that is a pretty weak argument, 
unless you did a really bad job in your 5----
    Secretary Bernhardt. I am not saying that. I am saying----
    Senator Van Hollen. But here is the question: Why would you 
reverse a provision that holds companies like BP liable under 
the Migratory Bird Treaty Act for mass killing of migratory 
birds? Why would you change----
    Secretary Bernhardt. I think the legal ambiguity before the 
opinion was helpful to the Government. I think the opinion was 
an overreach. I continue to believe it was an overreach, and as 
a result, it has to be addressed because it swung too far.
    Look, about 2.4 billion birds are killed a year by cats, 
and the concept that strict liability should apply here is----
    Senator Van Hollen. Mr. Secretary, are you suggesting that 
there has been a case brought against a pet owner because the 
cat ate a bird?
    Secretary Bernhardt. I am absolutely not.
    Senator Van Hollen. Is that what you are suggesting?
    Secretary Bernhardt. No, but what I am saying----
    Senator Van Hollen. Because that would be silly, right?
    Secretary Bernhardt. What I am saying is the absurdity of 
the concept that strict liability should apply to those type of 
situations is an example of why creating that type of opinion 
and leaving it here was an overreach.
    Senator Van Hollen. But, Mr. Secretary, let me ask you 
this. You are using the argument that it should not apply to 
somebody, a pet owner whose cat kills a bird, which we all 
agree that it should not apply, and using that argument to get 
BP and other big oil companies off the hook for a mass killing 
under this act. Is not that true?
    Secretary Bernhardt. My view is that it would be wonderful 
if you would like to create an incidental liability provision. 
It would be great for Congress to do that, but that is not what 
the Migratory Bird Treaty Act was trying to do when it was 
written.
    Senator Van Hollen. Would you support to do that?
    Secretary Bernhardt. I would absolutely work with you on 
that effort.
    Senator Van Hollen. We will look forwards to doing that.
    Secretary Bernhardt. I would like to make sure that it is a 
provision that is responsible and not as broad reaching as I 
just described.
    Senator Van Hollen. We are happy to sit down with you. I 
think the record shows that the kind of hypotheticals that you 
used are not ever ones that are being----
    Secretary Bernhardt. There is an element of selective 
prosecution here, sir.
    Senator Van Hollen. I think--yes, and people are focused on 
big companies like BP in the case of mass bird killings.
    But, anyway, I appreciate your invitation.
    Secretary Bernhardt. I will work with you. I will 
absolutely work with you.
    Senator Van Hollen. I hope--actually, I was going to reach 
out to you, Madam Chairman, because I think there is a 
bipartisan place where everyone get together----
    Secretary Bernhardt. The reality on this act, just as an 
aside, the predecessor to the Migratory Bird Treaty Act was a 
provision that was held unconstitutional or there were concerns 
about constitutionality, but it was written in this committee, 
so just FYI.
    Senator Murkowski. There you have it.
    Senator Van Hollen. All right. Thank you.
    Senator Murkowski. Let us go to Senator Capito.
    Senator Capito. Thank you, Madam Chairman, and to remain on 
your good side, Happy Birthday.
    [Laughter.]
    Senator Capito. Yes, yes.
    Secretary Bernhardt, welcome, and thank you for coming. I 
would like to thank you and your staff at the National Park 
Service for your assistance in moving forward with my efforts 
to re-designate the New River Gorge National River as a 
national park and preserve. So we are moving forward on that, 
and I hope we can count on the Department's continued support, 
technical support.
    They have been terrific. We just had a meeting down there 
several weeks ago, and it will, I think, be a great thing when 
we get that over the finish line.
    I also want to thank you--over the years I have talked with 
this subcommittee and with your predecessors--about the need to 
build a multiuse facility at the Canaan Valley National 
Wildlife Refuge in West Virginia, and I am very happy that the 
project has been approved, funded, and that you will be joining 
me in July to mark the midway point of construction.
    Secretary Bernhardt. Right.
    Senator Capito. I want to thank you again and the officials 
at the Interior, Fish and Wildlife. It is going to be a great 
thing for the many visitors and for those who live in and 
around that area, so thank you for that.
    I was going to ask you about our Restore Our Parks Act, but 
I think you made that pretty clear with Senator Alexander, how 
important that is, and also the considerations that the 
administration has made for park maintenance.

                  FEDERAL LAND TRANSPORTATION FUNDING

    So I am going to kind of go to a different issue on the 
parks, and that is the--in the context of the highway bill, 
several of my colleagues have highlighted disparity between the 
Forest Service and the National Park Service in terms of 
funding they receive for Federal land transportation, with the 
former receiving far more funding.
    Indeed, it has been estimated that half of the nearly $12 
billion national maintenance backlog for the Park Service 
relates to road management.
    Secretary Bernhardt. That is correct.
    Senator Capito. Are you aware of the imbalance that exists 
between these Federal land agencies concerning--I am talking 
here about the National Park Service and the Forest Service.
    Secretary Bernhardt. I am aware that there is an imbalance.
    Senator Capito. How do you prioritize your Federal projects 
within the Federal land transportation program?
    Secretary Bernhardt. So we develop a list of priorities 
every planning cycle, and that is the way we do it based on 
criteria that the Park Service has developed.
    Senator Capito. And then work through that top to bottom, 
from top priority down?
    Secretary Bernhardt. Well, I hope that that is the way we 
work through it.
    Senator Capito. Yes, I would assume so.
    Secretary Bernhardt. But, I mean, otherwise there is no 
reason to do the prioritization.
    Senator Capito. What does that leave in terms of backlog? I 
quoted a figure, but----
    Secretary Bernhardt. Well, I think it is over--I think it 
is nearly half. It is over $6 billion.
    Senator Capito. Over 6, yes.
    Okay. The scale of the need, what are the impacts on the 
operations of the agencies and public access to Federal lands 
for recreation and other purposes if you do not get these roads 
fixed? I mean, obviously, this is critical.
    Secretary Bernhardt. It is significant to the public. There 
is no question about it.
    Senator Capito. Do you find that there is a lot of outcry 
from different areas, from visitors to the parks or visitors to 
the forest?
    Secretary Bernhardt. I would say the outcry is rather 
localized. It is where potholes are so bad you cannot drive a 
car or those types of things.
    Senator Capito. How does that compare to other backlog 
maintenance, like shelters and restrooms and facilities of that 
nature?
    Secretary Bernhardt. In terms of prioritization?
    Senator Capito. Yes.
    Secretary Bernhardt. I think they are in separate buckets, 
but in terms of road construction versus visitor centers or 
things like that.
    Senator Capito. Okay. So, globally, in terms of your 
budget, if you could just--have you reprioritized over last 
year, certain areas of your budget that maybe you felt lacking?
    Secretary Bernhardt. In terms of the----
    Senator Capito. Yes. In terms of anything.
    Secretary Bernhardt [continuing]. Backlog, the backlog 
itself?
    Senator Capito. No. Well, I am talking about globally, your 
whole Department.
    Secretary Bernhardt. Well, I think what you see is we are 
trying very hard to focus on those core operational issues in 
this budget and then, at the same time, maintain some of the 
priorities that we had in terms of expanded access 
opportunities, things like that.
    Senator Capito. Well, I would like to say, too, in final 
comment, I received some very bad news that John Schmidt, who 
is our longtime Fish and Wildlife expert in the State of West 
Virginia, is going to be retiring. But he will be hopefully 
there when you are there in July with us to see a crowning 
jewel of some of his achievements. But he has been an absolute 
workhorse, understaffed, and there is a lot of permitting in 
our State because of our terrain and our waters that he works 
very diligently on. So I just want to kind of tip my hat to him 
and to the Fish and Wildlife in and of itself to try to help us 
meet the demands of all different kinds of agencies that are 
always pulling Fish and Wildlife in.
    Secretary Bernhardt. We have some great employees in the 
Department of the Interior.
    Senator Capito. You do. You do.
    Thank you so much.
    Senator Murkowski. Thank you, Senator Capito.

                            WELL REMEDIATION

    Mr. Secretary, one of the issues that we have been working 
on for a period of years in the State is the proper remediation 
of our legacy wells. I hate to use the term ``legacy'', because 
usually you think legacy in a positive light, but this has 
really been a blighted situation.
    Historical wells, some decades old that were drilled by the 
military and Federal interests, were not properly plugged. We 
have said the double standard here is just wrong. It is awful. 
It is a horrible precedent. If it was a private operator that 
was up there and they had not properly remediated, they would 
be fined so high that you cannot even count it and literally 
run out of town.
    We have tried to chip away at this over the years. I have 
been working to increase funding for BLM to prioritize the 
cleanup. We have made some headway.
    We have been operating under an MOU between the BLM and the 
State of Alaska, and working with the Alaska Oil and Gas 
Conservation Commission that does the oversight. There have 
been some recent reports in the past year with some 
dissatisfaction about the status of those wells or some of 
these wells that AOGCC does not feel have met the appropriate 
standards. This is a concern to us because we do not want the 
Federal Government to just be checking the box here saying, 
``Yes, we took care of that one, took care of that one.'' They 
need to be done. They need to be done right, and it is 
expensive to do. We recognize that because of the location and 
the condition.
    Can you commit that the BLM will review this program to 
make sure that they are properly preparing for the conditions 
they are going to encounter in the field and that the BLM is 
going to work with AOGCC in the State on these projects?
    Secretary Bernhardt. Yes. It is my understanding that there 
have been meetings with AOGCC--sorry. Yes, the----
    Senator Murkowski. The AOGCC.
    Secretary Bernhardt. The AOGCC. And those have been 
productive.
    I think we had a couple of contractor issues, and I think 
that you have both my and Joe's undivided attention, and we are 
going to do it right.
    Senator Murkowski. Good. Well, we need to do it right. We 
would expect it done right, again, with anybody else. So we 
certainly expect the Federal Government to as well.

                     SMALL AND NEEDY TRIBE FUNDING

    You have articulated here this morning that the Department 
had to make some difficult choices. The President's budget 
recognizes that, but there are some things that I want to bring 
to your attention that we will continue to fight for here. I 
certainly am.
    One of those is pretty small in terms of budget accounts, 
and this is the small and needy tribe funding. It is so 
important to these very small Tribes that service populations 
of less than 1,600 people. That is not very many people. There 
are only 62 small Tribes that qualify for this in the Country, 
and 50 of those are communities in the State of Alaska.
    To them, this funding, about $4.4 million for the total 
program, provides for maximum base level funding allowed under 
the law.
    We have had some issues in the past with matters of 
distribution and delay, but now we are hearing that the Tribes 
are not receiving the maximum base amount.
    So right now, the budget recommends this program for 
complete elimination. We work to provide funding for the 
program. I am going to do so again for 2020. I need to know 
whether or not the $4.4 million, which we have historically 
provided, is the correct amount to appropriate in order to 
allow these small Tribes to receive the maximum base.
    If it is the right amount, why have some of these Tribes 
not received the maximum?
    Secretary Bernhardt. That is a very fair question.
    Indian Affairs is looking at this today and yesterday.
    Senator Murkowski. Okay.
    Secretary Bernhardt. The first question is, for some 
reason, a certain payment does not proceed.
    Senator Murkowski. Right.
    Secretary Bernhardt. We will figure that out, and the 
answer is either yes or no, right?
    Then I think that we will find that it is the right amount 
and that they should be paid, and then they should be paid in a 
timely way. But, if not, we will have that discussion with you.
    But I think that we will get to the bottom of it, and we 
will make sure that the payments are processed, or if it is 
deficient, we will tell you that.
    Senator Murkowski. Okay. Well, I appreciate you looking 
into that. Again, that is one of the priorities that we have 
maintained around here for a while and we look forward to doing 
that.
    Let me turn to Senator Udall.
    Senator Udall. Thank you, Madam Chair.

                      CHACO NATIONAL HISTORIC PARK

    Mr. Secretary, you and I have discussed in the past the 
Chaco National Historic Park sits in a sacred, incredibly 
fragile region, and I am glad that you will have an opportunity 
to see this for yourself when you visit next week.
    Chaco is known around the world as the heart of a culture 
that inhabited the Four Corners area for hundreds of years, but 
the park covers only a fraction of the archeologically and 
culturally significant sites and artifacts.
    This year, this area is at real and continued risk. Over 
the last 3 years, the Bureau of Land Management has proposed 
new oil and gas leasing in the Greater Chaco Canyon landscape 
area. Protection of the area surrounding the national park is 
therefore of vital importance. That is why I recently 
introduced legislation to formally codify the informal 
assurances I and the Tribes receive for the past 10 years to 
establish a 10-mile buffer around the park.
    As you know, last year's fiscal year 2019 Appropriations 
Act included report language that directed the BLM to, quote, 
``refrain from leasing within a 10-mile radius of the Chaco 
Culture National Historic Park.'' Notwithstanding this 
prohibition, the BLM subsequently offered dozens of leases, 
including 9 leases within the 10-mile buffer area that protects 
Chaco. Does Interior's decision to offer these nine leases 
within the 10-mile buffer violate the appropriations report 
language?
    Secretary Bernhardt. I would have to look at the language, 
but generally, appropriation reports are not binding as a 
matter of law. It may have violated the spirit, if that is what 
you are----
    Senator Udall. Yes. Well, the report--so you are basically 
saying anything that is in there, you are going to----
    Secretary Bernhardt. I do not know. I would have to look.
    Senator Udall. No, no. But you are correct. It is not 
binding. But it is put in there for a specific purpose. So, 
basically, when you see that kind of language, you are just 
going to ignore it?
    Secretary Bernhardt. No. That is not what I am saying. You 
just asked me as a matter of law if it was prohibited, and I 
said I do not--that does not mean it is not very important and 
needs to be thought through.
    Frankly, before the last lease sale, the Navajo Tribe sent 
a letter, and I pulled those parcels as soon as I saw the 
letter.
    So we will work with you on it. I am going out there on 
Monday to see it myself, and I will work with you and Senator 
Heinrich on it.
    Senator Udall. Thank you.

                       CLIMATE CHANGE MITIGATION

    Secretary Bernhardt, I mentioned my concerns with your 
recent testimony before the House committees regarding your 
Department's obligations with respect to climate change. You 
have testified previously that Congress has not explicitly 
required you to take specific actions to mitigate climate 
change.
    I would disagree with you there. If you look at the 
Endangered Species Act, for example, very, very specific 
language, and I would just note on the Endangered Species Act, 
the Secretary shall--shall determine any species is endangered 
from manmade factors affecting its continued existence, and 
then it says you have a duty to use the best science to 
administer DOI programs to protect species, duty to avoid 
jeopardy, and a duty to avoid taking of a species.
    Secretary Bernhardt. So----
    Senator Udall. I have not asked a question yet.
    That is the strongest Endangered Species Act in the entire 
world. Everybody in the world looks up to us as a country with 
an Endangered Species Act. They try to pass laws like it. Many 
times, they do not enforce them. But with that kind of language 
and when you have a U.N. report that is talking about $1 
million species endangered as a result of climate, I would 
really, really hope that you would reconsider the idea that you 
are not going to do anything about this.
    And this is my question, and that is just one example, I 
think. The last in your Department that give you instruction 
are very specific, but--and we hope you will not--we hope you 
will not ignore them. But instead of meeting these challenges, 
your administration has consistently taken actions that 
disregard the need to address climate change, like gutting the 
Bureau of Land Management's methane waste rule, a rule which 
would have stopped nearly 2 million tons of methane from being 
released.
    So I am curious what your position would be if Congress 
stepped in and did exactly as you suggested. Mr. Secretary, 
would you support or oppose additional congressional guidance 
directing you to act more clearly to protect public lands in 
the context of climate change and manage our public lands to 
reduce greenhouse gas emissions?
    Secretary Bernhardt. So my view is if Congress wants to do 
that to the public lands, they should make that decision. Our 
role----
    Senator Udall. Would you support that? That is what the 
question was. Would you support it or oppose?
    Secretary Bernhardt. I would certainly work with you on it, 
and in the abstract----
    Senator Udall. Does that mean you would support it?
    Secretary Bernhardt. Well, we have not written anything, 
but if you want to do something, depending on what you want to 
do, we are happy to work with you on it.
    It is my belief--and I do not want to leave you with a 
misimpression because this is what we actually do. Actually at 
10:45 last night, I was reading an environmental assessment 
that had extensive discussion about climate change. We already 
incorporate climate change factors into our ESA listing 
process.
    Our role is to assure that the decisions we make are fully 
informed by science, and we rely on the very best science.
    So I am not suggesting that we should not do that. We 
absolutely have to do that. Reclamation uses thoughts about 
future climate change to deal with water scarcity issues in the 
future. We have hundreds, literally, of studies at USGS right 
now about different things related to climate change. So we 
completely respect that climate is changing and the need to 
study it and address it.
    What my point was is if you want us to say we are going to 
stop all oil and gas development on Federal lands because of 
climate change, you need to tell us that in a law because 
otherwise we simply are not required to do that, and it is not 
appropriate to----
    Senator Udall. I do not think the Congress has been 
considering that.
    Secretary Bernhardt. Absolutely, they have. That is exactly 
what we were talking about on the other side of the aisle.
    Senator Udall. Let me ask you another question here because 
you will not say whether you will support or oppose 
legislation. It is very simple, support or oppose giving your 
direction.
    Secretary Bernhardt. I would absolutely work with you on 
coming up with issues to address climate change on Federal 
lands to the extent we can figure out what those would be.

                           WILDLIFE CORRIDORS

    Senator Udall. Okay. I would just mentioned the U.N. report 
with the species being threatened. Since 2017, BLM has offered 
450 percent more western acres to oil and gas industry than 
offered in 2016, and nearly one-quarter of these leases were 
within a wildlife corridor or State wildlife priority area for 
big game.
    In my home State of New Mexico, more than 80 percent of BLM 
leases were on State wildlife priority areas, yet Interior has 
done little on the conservation side when it comes to wildlife 
corridors. That is one reason why last week I introduced the 
Wildlife Corridors Conservation Act to improve wildlife 
connectivity by creating more tools to protect these corridors. 
We need to be working on a landscape scale to protect species 
and their habitats. A piecemeal strategy is too little, too 
late.
    I am disappointed, then, that the administration once again 
proposed eliminating Landscape Conservation Cooperatives, a 
program that brings together the best and the brightest across 
Federal, State, Tribal, local, and NGO communities to tackle 
thorny landscape issues like migration corridors. For many 
years running, we have included report language directing the 
agency to continue the program, but for the last 2 years, the 
Department ignored our directives. Most of the LCCs have shut 
down. I believe this is a real step backwards.
    Mr. Secretary, in 2018, Interior issued a secretarial order 
to preserve big game habitats, and a couple of weeks ago, 
Interior set aside $2.1 million in Federal grants for State and 
local partner projects that would protect big game migration 
corridors.
    So, in theory, Interior does at least support the concept 
of preserving wildlife corridors, correct?
    Secretary Bernhardt. It is not in theory; it is in reality. 
I have said----
    Senator Udall. So your answer is yes?
    Secretary Bernhardt [continuing]. To every Governor and had 
a conversation that says the following: ``Governor, if you will 
work with me to develop a migration corridor, whatever it is, 
and identify it''--the Governor does that--``then I will do 
everything in our legal power to protect that corridor within 
our own legal authorities.'' And I have said that to the 
Wyoming Governor, the Arizona Governor, and the Utah Governor. 
I want to work with Governors to do that, and if you have 
legislation that you think does that, I think that we have to 
allow the Governors to identify the corridors because they have 
the scientific expertise with their Fish and Wildlife agencies.
    But to the extent that they can, we want to work with them 
on it, and we have actually invested--some of the States did 
not have the sophistication of studies and research to support 
where the corridors were. So we have invested with them to do 
that.
    I would very much like to do that. I think it is critical 
for American wildlife.
    Senator Udall. I am very happy to hear that you are willing 
to protect corridors. I am going to go right from here, get 
with my Governor, and we are going to get a proposal to you on 
corridors, so we can move forward in----
    Secretary Bernhardt. I am very open to that.
    Senator Udall. Sounds great.
    I just have one more question. I do not know if we are 
doing another round or if you want me to ask this one now, 
Madam----
    Senator Murkowski. If you just have one more. I have about 
5 more minutes.
    Senator Udall. Go ahead. Yes. I want to listen to them. I 
am sure they are going to be insightful.
    Senator Murkowski. Well, I am sure they will be.

                 MISSING AND MURDERED INDIGENOUS WOMEN

    Mr. Secretary, we have been working on some initiatives 
here, as you know, related to murdered and missing indigenous 
women. These are issues that are very discouraging, given the 
statistics that we face in our Tribal communities on our 
reservations in Alaska's remote villages.
    One of the challenges that we face is lack of data, data 
collection, and reporting in the Tribal communities.
    Can you give me an update here today with regards to what 
the Bureau of Indian Affairs, working with Department of 
Justice, is doing to get better data, better reporting, and how 
we are working with Tribes to provide law enforcement 
activities?
    We have had some truly troubling and disturbing incidents 
in Alaska recently in some of our small villages where law 
enforcement is lacking facilities to house those who need to be 
temporarily restrained or incarcerated. We have seen three 
people perish in the past couple months. So there is a big 
focus and spotlight in my State right now on this bigger 
picture, which is a very troubling picture.
    Can you just give me some update as to where your 
priorities and your focus are?
    Secretary Bernhardt. First off, the situation is exactly as 
you describe, and it is horrific. But we are having very good 
and significant discussions with the Department of Justice and 
with the White House itself. I think we are going to have a 
very significant effort here within the next month or so that 
will be rolled out.
    But we are already partnering with Justice to add Tribal 
affiliation information to their missing and unidentified 
persons databases. We are trying to help track the 
investigations.
    Where I think we have an opportunity is to partner with 
Justice, which has a lot of resources and a lot of economic 
resources. BIA and our team have a lot of relationship 
resources and knowledge on the ground. We are trying to bring 
those together to be more successful in investigating, more 
successful in deterring, and we have launched human trafficking 
courses in several Indian Country law enforcement officer 
training programs.
    We have three pilot training programs going on long-term 
investigations and missing cases. There are a ton of missing 
cases that I would like to have our investigators be able to 
work with Justice on because they are a low priority for 
Justice, not because it is bad, but they have a whole list of 
things.
    So I think that if we can bring our resources together, we 
really have a chance of making good headway here, and we are 
working to coordinate that through a higher administrative 
function, and I think that is going to happen.
    Senator Murkowski. Attorney General Barr is coming to the 
State soon. He is going to have an opportunity to see the 
situation in a remote community where you have no law 
enforcement presence.
    One of the reasons why we have such horrible statistics is 
if you are a perpetrator, the chances or likelihood of you 
getting caught, of any consequence----
    Secretary Bernhardt. Are zero.
    Senator Murkowski [continuing]. Of any penalty, are slim to 
none.
    Secretary Bernhardt. That is right.
    Senator Murkowski. And so we see this over and over and 
over again.
    I appreciate the focus that you are providing this. I know 
that Assistant Secretary Sweeney is working on it.
    Secretary Bernhardt. It is a huge priority for her.
    Senator Murkowski. But it has to be the whole-of-Government 
approach.
    Secretary Bernhardt. That is the whole thing. If we do not 
have Justice, it will not work.
    So we feel the same way. I am thrilled that you are taking 
him up there.
    Senator Murkowski. Well, know that it is not just me. We 
are working with Senator Cortez-Masto, Senator Udall here, 
Senator Tester, and Senator Daines. This is a bipartisan issue. 
We are working with colleagues in the House as well, and so 
know that we want to work with you and the administration on 
this.
    I do appreciate that you have kept the Tribal court funding 
in this year's budget. A couple years ago, we were able to 
include the Public Law 280 States, like Alaska, in that. That 
has been important for us in terms of building capacity in this 
State and in our Tribal communities.

                   VIOLENCE AGAINST WOMEN ACT FUNDING

    We have also provided additional money in recently passed 
omnibus bills for the Violence Against Women Act (VAWA), $2 
million for VAWA there.
    Can you provide an update on how DOI has been distributing 
those dollars as they relate to VAWA? Do you feel that the 
direction that we have taken with increased resourcing to 
Tribal court funding is helping us out in these areas, like 
Alaska, that had previously not had this kind of support?
    Secretary Bernhardt. I think the answer to that question 
is, absolutely, it is helping.
    Look, the implementation of a better understanding of the 
rule of law is very important, and it is absolutely helping.
    Senator Murkowski. Okay. Well, again, that is another area 
where we want to work with you.
    Let me turn to you, Senator Udall, for your last----
    Senator Udall. This is not my final and last because your 
question was so good on murdered indigenous women.
    Senator Murkowski. Well, I am not done with mine either, so 
we will keep going.
    We will not keep you too much longer, Secretary.
    Senator Udall. I am not going to ask a question on this 
one. I just want to totally, Mr. Secretary, support the 
Chairman on this issue because I am the Ranking. She is with me 
over on the Indian Affairs Committee, and we would love to have 
you over there and talk specifically about Native American 
issues.
    But when it comes to these law enforcement issues, 
broadening out, murdered and missing indigenous women, the law 
enforcement situation on the reservation, on Tribal nations, is 
pathetic. If you just take the figures which we unveiled last 
week in the committee, if you are off reservation, you have 30 
times more resources. If you are on reservation, it is a 
pathetic amount, and that is using the normal numbers per 
thousand comparing on reservation, off reservation.
    So the best thing you could do is get the Justice 
Department to ask for those resources for the FBI agents, for 
the BIA investigators, all of those kinds of folks.
    Secretary Bernhardt. I cannot say exactly what we are doing 
there, but I get it.
    One thing for you to really know is this is really a high 
priority for the Assistant Secretary of Indian Affairs, for us 
as a group, this is really a very high priority, just like it 
is with you, and we want to work with you and coordinate with 
you and win on this issue and succeed because it is a terrible 
story.
    Senator Udall. Yes. Well, I could not agree more, and I am 
glad you are really focusing on it.
    I can tell you in the Indian Affairs Committee, we had a 
very low-level Justice Department person that did not even know 
the comparison and how bad this situation was, and they would 
not commit to anything and doing anything.
    So you working with the Attorney General, the Attorney 
General coming to Alaska, I hope there is a big push here.

                       FOURTH OF JULY CELEBRATION

    I do not mean to end up on a negative question, but I am 
just deeply concerned that the President is planning to take a 
nonpartisan celebration and turn it into some kind of de facto 
political rally. As I hope you know, spending taxpayer dollars 
on political activity violates appropriations law. The 
longstanding Government-wide prohibition included annually in 
the financial services appropriations bill makes it illegal for 
agencies or contractors to spend taxpayer dollars on publicity 
and propaganda activity.
    The nonpartisan Government Accountability Office defines 
those terms as--and I quote here--purely partisan activities 
and self-aggrandizing activities.
    Mr. Secretary, can you assure us that no funds appropriated 
by this subcommittee will be spent on activities that are 
partisan or that serve purely to aggrandize the President? I am 
talking here about this 4th of July celebration.
    Secretary Bernhardt. Absolutely, I can give you that 
commitment. I think it is fantastic that the President might 
take time to join folks on the National Mall to celebrate 
America's Independence Day.
    I think it is a value for us to be expanding the overall 
access to the Mall.
    I am hopeful that the President will speak, but it is a 
celebration about America. And America has a great story to 
tell, and we can have a great celebration. We can do it in a 
way that will not conflict with the Capitol concert and things 
like that.
    So I think it is a good thing, and I think that, frankly, 
if any President were celebrating the 4th of July, saluting 
America, we all should be positive about that. And I will make 
absolutely sure that every dollar we spend complies with the 
law. I will promise you that.
    Senator Udall. Good.
    Secretary Bernhardt. But I think it is a good thing, and I 
think getting more people--we have been able to move things in 
a way that will allow more people to see the fireworks from the 
Mall. In my opinion, that is fantastic.
    I do not know if you have done it, but I have done it a 
lot. And it is the best place in America to watch the 
fireworks, and it should be.
    Senator Udall. I think it is important to have a 4th of 
July celebration. I hope you are totally transparent with us 
and all Federal agencies are on how much money is going to be 
spent, especially the traditional amount that is spent here on 
the Hill for the celebration, and then how much more it is 
going to cost for all the additional expenditures, because I 
think people would be very interested in knowing what is 
happening with the dollars.
    Make sure your staff looks at Public Law 116-6, which is 
in, as I said, annually inappropriately interpreted.
    Secretary Bernhardt. I respect that. I respect that.
    Senator Udall. Just be careful. We want you to be here for 
a while.
    Secretary Bernhardt. I completely respect that.
    Senator Murkowski. Thank you. Agree, agree. Thank you, 
Senator Udall.
    Secretary Bernhardt, I appreciate you making that 
commitment and providing that clarity.
    You know that we had asked for numbers on that. This 
celebration is a wonderful celebration and a great tribute to 
our Nation, and we want to continue and to have the public 
enjoy it.
    You stated that you think it is the best fireworks display 
in America. I am going to invite you to Wrangell, Alaska, 
because, by gosh, for a community of 2,400 people, they do a 
knockout job.
    But I think every small town in America feels that way 
about their celebration.
    Secretary Bernhardt. That is very fair.

                         DENALI POLYCHROME PASS

    Senator Murkowski. I need to ask one quick question about 
Polychrome Pass out in Denali. This is something that we have 
had discussion about. As you know, there is one way in and one 
way out of Denali, and it is 90 miles. It is pretty tough road, 
and you cannot take your own vehicle, except for a few weeks in 
the fall, so you go in by bus. It is a beautiful trip, but that 
road is a tough road over incredible terrain with a long, long, 
long drop down to the bottom.
    We have had some sloughage. We had the earthquake there in 
November that did not help the situation, but this slippage and 
the sediment assessments indicate that we have some serious 
work to do.
    Park Service has been working in coordination with Federal 
Highways to monitor this, and to look at potential 
stabilization and rerouting, but it is pretty tough to find a 
reroute when you are on the side of a mountain.
    I understand the report is coming soon. I am curious to 
know whether you can give me any updates on when we might see 
this report and what Park Service is doing in the meantime to 
ensure that this is going to be a safe route until we are able 
to address it.
    Secretary Bernhardt. So it is a very serious issue. Anytime 
you hear slow landslide, it is probably not a good term, and I 
want to get back to you with a specific date. The briefing 
material I got is not going to be helpful. So I will get back 
with your staff this afternoon on it.
    Senator Murkowski. Well, I appreciate that, and I know that 
we are trying to set an opportunity for you to come to Alaska 
and look at some of these issues.
    Secretary Bernhardt. That is right.
    Senator Murkowski. This is probably one that we would like 
you to take----
    Secretary Bernhardt. When I am there, wherever you take----

                           CRITICAL MINERALS

    Senator Murkowski [continuing]. An eyeball on.
    You mentioned in your opening statement the Department's 
focus on critical minerals. I thank you for that. I think you 
know I have been pounding the drum on this for a series of 
years. I appreciate the executive order coming out of the 
administration. We have introduced our critical minerals bill. 
We have heard it before the Committee. There might be an 
opportunity to move it in other areas, but this is to me as 
significant as anything we can be doing from a national 
security perspective.
    You mentioned the Chinese and their lock on critical 
minerals. I guess BOEM will establish this OCS critical mineral 
inventory, and we have provided or the budget provides for 
critical mineral mapping initiative.
    Secretary Bernhardt. That is right, for USGS and BOEM.
    Senator Murkowski. For USGS. So we have got two different 
things going on.
    Secretary Bernhardt. Well, that is right because, in 
theory, they are two different areas, right?
    Senator Murkowski. Right.
    Secretary Bernhardt. The easiest way to think about it is 
USGS is land and BOEM is water.
    Senator Murkowski. But we are moving on both fronts is what 
you are saying.
    Secretary Bernhardt. That is the goal, absolutely, so that 
we have a responsible assessment, which then hopefully will 
facilitate future activity and development.
    Senator Murkowski. Well, I have always maintained that 
until we know what it is that we have, it is difficult to have 
a conversation about what might move forward. If you do not 
know, you do not know.
    So I appreciate that within both USGS and BOEM, you are 
taking steps as a Department to better understand that.

                   EARTHQUAKE AND VOLCANO MONITORING

    Last of the last questions, Senator Udall, I promise this. 
We are still coming out from underneath the 7.1 earthquake that 
we had in November. In addition to taking lessons learned from 
1964 and dealing with building codes and knowing where to 
build, we feel like we are in a better position because of what 
we have gained through the equipment that came to us from the 
National Science Foundation to survey. Basically, it is the 
earthquake monitoring.
    We were able to complete this transition from NSF to USGS. 
That was completed with funding in the fiscal year 2019 
Omnibus, but now it is on your side of the ledger. And the 
question is whether or not USGS knows the cost of the annual 
appropriations and maintenance, and what that cost is going to 
be going forward for these monitoring stations. Do we have to 
start providing this funding in fiscal year 2020? We want to 
make sure that we do not lose the data-gathering ability that 
we have in place because we are not resourcing the operation 
and maintenance.
    Secretary Bernhardt. So let me talk to Director Reilly 
about that specifically----
    Senator Murkowski. Okay.
    Secretary Bernhardt [continuing]. Because I thought we had 
it covered, but I will talk to him to make sure.
    Senator Murkowski. Well, if you can check, because if it is 
in my list of questions for you, it probably means that we do 
not see it in here.
    Secretary Bernhardt. Okay. I am pretty sure. I will talk to 
him because I was under the impression----
    Senator Murkowski. Okay. And he is actually going to be up 
in the State----
    Secretary Bernhardt. That is what he told me. He is coming 
up there next week.
    Senator Murkowski [continuing]. This next week.
    Secretary Bernhardt. That is right.
    Senator Murkowski. I am sure he will have that answer. In 
addition to earthquakes, I am going to give you a question for 
the record on upgrading equipment for the volcano monitoring.
    Secretary Bernhardt. He is on top of that too. I can tell 
you.
    Senator Murkowski. He has got all the hazards.
    Secretary Bernhardt. That is exactly right.
    Senator Murkowski. You have the political hazards; he has 
the natural hazards.
    That is the last of my last questions, Mr. Secretary. Thank 
you. Thank you for being here this morning. Thank you for 
fielding the questions as you have. You have promised to get 
back with us on some of these details. We will look forward to 
that. We have got some things that we are going to work 
together on.
    Senator Udall.
    Senator Udall. Madam Chair, just on the issue of putting 
questions on the record, this water settlement, I mentioned, 
the Aamodt case.
    Secretary Bernhardt. Yes.
    Senator Udall. I am going to submit some questions for the 
record. This case has been going on 51 years.
    Secretary Bernhardt. I know. Before it was settled in 
Congress, it was the longest water rights litigation in the 
Country.
    Senator Udall. Right.
    Secretary Bernhardt. And I do not know a lot since that--I 
will get on top of it.
    Senator Udall. You were probably working as solicitor when 
this case----
    Secretary Bernhardt. That is right.
    Senator Udall. My 30 years of public service went before 
that. So this is a long time.
    Senator Murkowski. This is why this subcommittee is so 
fascinating, a 51-year litigation. I had no idea that the birds 
were going after the catfish.
    [Laughter.]
    Senator Murkowski. Senator Alexander suggested something 
about windmills. I suggest nets over the ponds. I had no idea. 
We learn so much.

                     ADDITIONAL COMMITTEE QUESTIONS

    Mr. Secretary, again, thank you for being here, for your 
responses here today, and what you will provide going forward. 
Your team is working with all of ours. We appreciate that as we 
move through this budget process.
    I also appreciate your leadership.
    Secretary Bernhardt. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted to Hon. David Bernhardt
             Questions Submitted by Senator Lisa Murkowski
    Question 1. The 2018 Omnibus included a provision directing the 
Department to issue guidance for streamlining and approving vegetation 
management plans regarding transmission line rights-of-way. This work 
is particularly important given the wildfire risks posed by fuel build 
up and hazard trees near these lines. What is the status of the 
guidance? The law also directed the Interior Department to develop 
categorical exclusions for implementing Vegetation Management Plans 
developed by utility companies. What is the status of these categorical 
exclusions?

    Answer. The Bureau of Land Management (BLM) issued a new policy for 
Powerline Rights-of-Way (ROW) and fire risk, including vegetation 
management. This proposed policy details agency requirements, 
introduced under the 2018 Omnibus Act, for reviewing and approving 
vegetation management plans submitted by utilities. The Department' s 
updated guidance for operations and maintenance was made available to 
the public on December 12, 2019, and can be viewed at: https://
www.blm.gov/news.

    Question 2. NPS Centennial Act Visitor Experience Improvement 
Authority (VEIA).--The National Park Service Centennial Act was signed 
into law in December of 2016. The legislation created a new authority 
for the Secretary to award and administer commercial services and 
related professional services contracts in park units, outside of the 
existing concessions system. The law stated that the regulations should 
be implemented as soon as practicable, but to date, it is my 
understanding that we do not even have a proposed rule published yet. 
Nearly 3 years later, this program, which represents a new opportunity 
for the Department to partner with commercial services contractors to 
provide exciting new recreational opportunities at park units, not to 
mention the possibility of rehabbing park assets, remains stalled. Can 
you please explain the current status of implementation of this 
provision of the Centennial Act? And how the Department plans to 
utilize this authority?

    Answer. A draft proposed rule to implement the Act is currently 
under review.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
    Question 1. The Bureau of Reclamation requested $9 million for 
fiscal year 2020 to continue oversight, management, coordination, 
partnering, and construction on the Pojoaque Basin Regional Water 
System source water intake system, water treatment plant and 
transmission and distribution systems for Pueblo de San Ildefonso and 
northern portions of the Pueblo of Pojoaque. If appropriated, that 
would bring the total appropriations for the discretionary portion of 
the settlement to approximately $55 million; $10 million short of the 
authorization ceiling. Yet, the Department has recently decided to only 
allow $10 million of the appropriated amounts to be used for 
construction.

    (a). Please outline how Reclamation arrived at the $10 million 
figure and explain why Reclamation cannot use all appropriated funds to 
commence construction.

    Answer. The United States and the settlement parties have reached 
an agreement that maps out a construction sequence in accordance with a 
Consensus Design Concept agreed to by the United States and the 
settlement parties; an amended Engineering Report based on and 
consistent with the Consensus Design Concept; the total cost of such 
construction; the allocation of the funding shortfall; the conditions 
for commencing construction of the Project; and a revised definition of 
``substantial completion'' pursuant to the authorizing statute. The 
agreement provides ``[b]ecause Congress has yet to authorize additional 
Federal funding for construction of the Project, the Parties agree to 
proceed with limited construction . . .'' The United States and the 
settlement parties have agreed to expend $18.6 million in Federal and 
non-Federal funds on a series of agreed upon construction activities. 
The Federal share of the $18.6 million is $13 million, of which $10 
million will be expended on agreed upon construction activities and $3 
million towards non-contract costs, including design and project 
management.

    (b). Does the Secretary, acting through the Commissioner of 
Reclamation, have a statutory obligation to plan, design, and construct 
a regional water system in accordance with the Settlement Agreement?

    Answer. Yes.

    Question 2. The Federal Records Act establishes that the Department 
must make a permanent record of all copies of documents, including 
itineraries and schedules, regardless of medium. That extends to tweets 
on Twitter, Facebook posts, and Google calendars. The regulations and 
Interior's agreement with the National Archives require that these 
records be maintained ``from now until the end of the Republic.'' The 
law also requires that the Department preserve originals and any 
subsequent amendments or modifications, under threat of prosecution 
under the criminal code.

    (a). What steps does Interior take when it receives a FOIA request 
to ensure all potentially responsive documents are preserved while the 
request is pending, including schedules or calendars from the Secretary 
and other senior level officials?

    Answer. NARA has approved the Department-wide records schedule 
specifically covering records for ``High Level Official''. This 
disposition authority prescribes a permanent retention period for these 
records. All High-Level Officials receive face-to-face records 
management training as they are brought on board. During these training 
sessions, these officials are informed of their senior role and 
requirement for permanent records preservation, so these records, 
including calendars and schedules, will be available for FOIA and other 
document production requirements.

    (b). Does Interior have a records schedule in place covering high-
level officials' calendars? If so, what is the retention period for 
those calendars, and what steps has Interior taken to ensure compliance 
with this records schedule?

    Answer. The Department maintains a list of High-Level Officials who 
must observe the NARA approved disposition authority, which prescribes 
a permanent retention period. The Deputy Secretary, Acting Secretary, 
and Secretary roles are all High-Level Official roles within DOI. As 
such, the Department maintains all Federal records associated with 
these roles on a permanent basis.
    To ensure compliance with the Federal Records Act, the Department 
has implemented a robust records training program, which includes 
training for all new employees. This training includes briefing all 
political officials on their legal requirements for managing Federal 
records. The Department also requires annual records re-certification 
training.

    (c). Mr. Secretary, have you or your staff consulted with the 
National Archives regarding how records need to be maintained as 
governed by the Federal Records Act, especially in the context of 
Google software or other applications that allow for constant revision 
and overwriting? What specific policies and actions has the Department 
taken to ensure it is adequately documenting the public record 
consistent with legal obligations?

    Answer. Yes. The Department has and continues to work with NARA on 
an ongoing basis concerning its records management program and the 
government-wide move to electronic records since the Federal Records 
Management Directive (M-12-18) was released in late 2012.

    (d). When and why did the Secretary begin using a Google calendar 
application that overwrites information when new or corrected 
information is added?

    Answer. NARA's review concluded on June 13, 2019, and determined 
that Congress's inquiry was ``unfounded.'' In closing its review, NARA 
stated that ``we have found no basis to believe that there has been an 
unauthorized destruction of federal records.'' A copy of NARA's letter 
is attached (Attachment 1). For further details and information 
regarding the Department's recordkeeping, please refer to the report 
(Attachment 2) at the end of the ``Additional Committee Questions'', 
prepared by the Committee on Oversight and Reform and titled 
``Disproving Democrat Allegations of Recordkeeping Wrongdoing at the 
Interior Department.''

    (e). What, if any, backups does Interior perform of any data 
created on Google's calendar function?

    Answer. See the response to subparagraph (d).

    (f). When and why did Interior change the way it publicly described 
the Secretary's meetings with outside entities to omit information on 
his calendars that identified with whom the Secretary was meeting? In 
those instances, what other records did Interior create or maintain 
that capture all of the Secretary's daily events?

    Answer. See the response to subparagraph (d).

    Question 3. The Fiscal Year 2020 Budget includes another $25 
million to reorganize bureaus funded in the Interior Appropriations 
bill with almost no detail of how the funds will be spent. This 
subcommittee provided $14 million for this effort in Fiscal Year 2019, 
and the spending plan you just submitted provides limited detail on 
what you plan to do. As you know, any major relocation of staff falls 
under the reprogramming requirements set forth by the Appropriations 
Committees, and because the Department is required to submit plans for 
approval by the Committees.

    (a). When does Interior expect submit a plan that details the 
personnel structure of the newly created regions, including any changes 
to office locations or personnel?

    Answer. On August 9, 2019, the Secretary announced the 
establishment and appointment of 12 Field Special Assistants who are 
dedicated to ensuring the long-term operational efficiency of the 
unified regional structure.

    (b). Does Interior intend to establish new regional directors for 
its bureaus that align with the new map? If so, when will Congress see 
such a plan?

    Answer. The Department does not plan to establish new regional 
directors.

    (c). Is the Department contemplating any changes related to the new 
regions that will affect the duty station of any personnel currently 
based in New Mexico?

    Answer. The Unified Regional structure became final on August 22, 
2018, and information regarding that reorganization can be found here: 
https://www.doi.gov/employees/reorg/unified-regional-boundaries.

    (d). When does the Department expect to make public its proposal to 
relocate bureau headquarters from the Washington, D.C., area?

    Answer. The announcement of the BLM headquarters elements moving 
West occurred on July 16, 2019.

    (e). What specific criteria is the Department utilizing to decide 
whether to move bureaus? How were the bureaus being evaluated for a 
move selected?

    Answer. The decision to move BLM Headquarters elements to Grand 
Junction, Colorado, benefited from a thorough analysis of BLM 
operations and workforce, using generally accepted forms of financial 
analysis, including net present value, payback period, and rate of 
return. Additional personnel from the Washington, DC, office will move 
to State office locations throughout the Western States.

    (f). What locations and/or geographic areas are under 
consideration, and how were those areas selected?

    Answer. Grand Junction was selected as the Western destination for 
relocating elements of BLM' s headquarters. In selecting Grand 
Junction, a variety of factors were considered.

    (g). How is Interior planning to re-engage the public in the 
Department's deliberations regarding (a) changes to newly created 
regions; and (b) proposed bureau relocations?

    Answer. Discussion with interested stakeholders took place since 
the inception of the reorganization. We created a website, https://
www.doi.gov/employees/reorg and a Reorganization Communication Team to 
assist Unified Region leadership with internal and external 
communications.
    With regard to the relocation of BLM to the Western U.S., we have 
ensured appropriate communications to BLM employees, Members of 
Congress, Governors of all of the affected States, and other key 
partners and constituents.

    (h). Given that Tribes regularly work with BLM and other affected 
agencies-not just the BIA and BIE-how does Interior intend to consult 
with Indian Tribes regarding the broader reorganization?

    Answer. With regard to the broader Departmental reorganization 
effort, the Department held 11 formal Tribal consultation sessions and 
an additional 7 listening sessions with Tribal leaders around the 
country. Transcripts of these sessions were made available online. In 
addition, the Secretary held 2 additional Tribal leader roundtable 
discussions specifically on the Department' s reorganization efforts.

    Question 4. On March 29, 2019, the United States District Court for 
the Northern District of California (Oakland Division) concluded that 
the Department's decision to repeal regulations governing oil, gas, and 
coal royalties on federal and Indian lands violated the Administrative 
Procedure Act. The Court therefore reinstated the 2016 Oil and Gas 
Valuation rule.

    (a). The Royalty Policy Committee appeared to be tasked with 
rewriting the Valuation Rule. Now that Interior has disbanded this 
Committee, what is the status of Interior's efforts to rewrite the 
rule?

    Answer. The Royalty Policy Committee (RPC), which was reestablished 
by then-Secretary Zinke in 2017, provided recommendations to the Office 
of Natural Resources Revenue (ONRR).

    (b). Does Interior intend to implement the prior 2016 Oil and Gas 
Valuation Rule?

    Answer. The effect of the Court's ruling was to reinstate the 2016 
valuation rule, including its original effective date of January I, 
2017. ONRR sent a ``Dear Reporter'' letter to industry to notify 
industry of its obligation to comply with ONRR regulations as amended 
by the 2016 valuation rule. ONRR issued a second ``Dear Reporter'' 
letter on November 20, 2019, extending the date on which compliance 
activities would begin to July 1, 2020.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    Question 1. When I asked you about the Interior Department's 
formalized ``awareness review process''--by which political appointees 
outside of the traditional FOIA office are given the opportunity to 
weigh in and potentially influence responses to FOIA request - you gave 
an entirely conclusory Answer. ``It's completely legal.'' That is not a 
sufficient response.

    (a). Please provide any memoranda, guidance, protocols, 
correspondence, and any other documents memorializing this formalized 
``awareness review process'' within the Interior Department.

    Answer. The Department' s updated awareness process is publicly 
available at: https://www.doi.gov/sites/doi.gov/files/uploads /
awareness process memo 2.0.pdf.

    (b). On what basis are you able to conclude that this awareness 
review process is ``completely legal?'' Was there a review of the 
legality of this ``awareness review process'' before it was instituted?

    Answer. A link to the guidance document is provided in the response 
to the previous question.

    (c). If so, was that legal review memorialized in any memoranda, 
guidance, correspondence or any other documents? Please provide all 
such memoranda, guidance, correspondence, or any other documents that 
memorialize any legal reviews of the ``awareness review process.'' If 
not, why not?

    Answer. A link to the guidance document is provided in the response 
above. The process does not result in the withholding of information 
that is subject to release under FOIA or cause undue delay in FOIA 
processing and, thus, does not violate the FOIA or any other law.

    Question 2. When I asked you to commit to reconsidering and 
rewriting the Interior Department's proposed FOIA rule--which has 
raised serious concerns among a bicameral, bipartisan group of Members 
of Congress--you stated that you would consider whether to ``scrap it, 
proceed with it, or significantly modify it.'' Those are three very 
different outcomes.

    (a). What is the status of your review of the proposed FOIA rule, 
and whether you will ``scrap it, proceed with it, or significantly 
modify it?''

    Answer. The Department' s final rule was published on October 24, 
2019. Your letter of appreciation to the Department for addressing your 
concerns with the rule was received on October 25, 2019.

    (b). Who in the Interior Department--in terms of both Department 
bureaus and offices and relevant staff--is participating in your review 
of the proposed FOIA rule?

    Answer. See the response to the previous question.

    (c). Will you commit now to ensuring that career officials who 
traditionally handle the Department's FOIA policies and responses will 
be involved in your review of the proposed FOIA rule? If not, why not?

    Answer. See the response to subparagraph (a).

    (d). What legal, policy, and other factors are you considering in 
making a decision whether to scrap, proceed with, or significantly 
modify the proposed rule? Please provide a list of legal, policy, and 
other factors that are guiding your review of the proposed FOIA rule.

    Answer. See the response to subparagraph (a).

    (e). If you decide to significantly modify the proposed rule, will 
you commit now to consulting with the congressional committees with 
jurisdiction over FOIA to obtain their input about how to modify the 
proposed rule?

    Answer. See the response to subparagraph (a).

    Question 3. There are numerous investigations into whether your 
calendar entries are being deleted in violation of federal records 
laws, and whether calendar entries provided to the public are scrubbed 
of critical details, such as the attendees of meetings. This 
obfuscation prevents the American public from understanding whether you 
are meeting with--and potentially advocating on behalf of--special 
interests that you previously represented as an oil and gas lobbyist.

    (a). During your tenure in the Interior Department under President 
Trump, have you ever met with organizations or associations 
representing any of your former clients where the meetings' attendee 
lists were subsequently not made available to the public?

    Answer. During my confirmation to be Deputy Secretary of the 
Department of the Interior, I committed to fully comply with my ethics 
agreement and to actively seek and consult with the Department's 
Designated Agency Ethics Official regarding any particular matters 
involving specific parties of former clients or entities represented by 
my former firm. I have continued this commitment in my role as 
Secretary. Copies of my calendars and other related documents are 
available to the public at: https://www.doi.gov/foia/os/secretarial-
calendars.

    (b). Will you commit now to making and keeping public the list of 
attendees at meetings you personally take, as well as the topics of 
discussion at those meetings? If not, why not?

    Answer. During my confirmation to be Deputy Secretary of the 
Department of the Interior , I committed to fully comply with my ethics 
agreement and to actively seek and consult with the Department' s 
Designated Agency Ethics Official regarding any particular matters 
involving specific parties of former clients or entities represented by 
my former firm. I have continued this commitment in my role as 
Secretary. Copies of my calendars and other related documents are 
available to the public at: https://www.doi.gov/foia/os/secretarial-
calendars.

    Question 4. During a House hearing on March 13, 2019, the 
Department's Deputy Chief FOIA officer was asked whether your calendar 
entries were being deleted or altered after they were created. She 
responded that the Office of the Solicitor is working with the records 
officers to ``determine what's occurred.''

    (a). What is the status of that review, and what has the review 
uncovered? Which components of the Department are involved in this 
review? Please provide a detailed status update of that review and any 
interim findings.

    Answer. NARA's review concluded on June 13, 2019, and determined 
that Congress' s inquiry was ``unfounded.'' In closing its review, NARA 
stated that ``we have found no basis to believe that there has been an 
unauthorized destruction of federal records.'' A copy of NARA' s letter 
is attached. For further details and information regarding the 
Department's recordkeeping, please refer to the attached report, 
prepared by the Committee on Oversight and Reform and titled 
``Disproving Democrat Allegations of Recordkeeping Wrongdoing at the 
Interior Department.''

    Question 5. I am concerned by the National Park Service's proposal 
to modify long-standing procedures to nominate properties to the 
National Register of Historic Places for the purposes of protecting and 
preserving historic properties. Not only do I question the need for 
this rule change, but the proposal also appears contrary to the 
National Historic Preservation Act.

    (a). What is the problem this proposed change seeks to fix and who 
approached the Department or Park Service with this proposal?

    Answer. The proposed changes seek to implement the amendments to 
the National Historic Preservation Act enacted by Congress in 2016 and 
emphasize the rights of private property owners by giving them more 
control over whether their property is listed in the National Register 
as part of a historic district. The changes would also extend the 
timeline for the Keeper to respond to appeals, in order to give the 
nominating authority sufficient time to provide their position and any 
relevant information regarding the appeal, and for the Keeper to 
consider any information provided by the State Historic Preservation 
Officer. Finally, the rule includes additional minor changes to the 
regulations that no longer reflect the current practice of how 
properties are listed in the National Register.

    (b). Which affected entities did you consult or coordinate with 
when developing and publishing the rule? Did you consult with the 
Advisory Council on Historic Preservation, as required by the National 
Historic Preservation Act?

    Answer. The Department and NPS consulted with major stakeholders, 
including the Advisory Council on Historic Preservation as well as the 
National Conference of State Historic Preservation Officers, National 
Association of Tribal Historic Preservation Officers, the National 
Trust for Historic Preservation, Federal Preservation Officers, and 
other historical/archeological associations during the 60-day comment 
period. Officials from DOI and NPS also consulted with Tribes in person 
and by telephone and extended the period for Tribes to comment on the 
Rule to July 8, 2019.

    (c). How many public comments in opposition to this proposed rule 
have you received? How many public comments in support of this proposed 
rule have you received? For those in opposition, what was the primary 
concern cited?

    Answer. The NPS received 3,304 comments during the public comment 
period, which are available for viewing here: https://
www.regulations.gov/document?D=NPS-2019-0001-0001. Review and analysis 
of the comments is continuing.

    (d). Congress passed a minor, procedural amendment to the National 
Historic Preservation Act in 2016. What specifically in the 2016 
amendment do you believe authorizes the sweeping changes that this 
rulemaking proposes to the National Register nomination process?

    Answer. Detailed information regarding the proposal and the 
National Park Service's actions is available here: https://
www.regulations.gov/document?D=NPS-2019-0001-0001.

    (e). How would this change affect the Historic Revitalization 
Program, or other historic preservation programs administered by the 
National Park Service?

    Answer. These changes are procedural to the nomination process and 
would have no direct effect on NPS historic preservation programs, 
including the Historic Revitalization Program.

    Question 6. In each of Fiscal Years 2018 and 2019, Congress 
provided $5 million for the Historic Revitalization Program, which I 
created based on a highly successful Vermont initiative, to support the 
rehabilitation of historic properties and to foster economic 
development in small and rural communities across the country.

    (a). The deadline for applications for the inaugural FY18 awards 
was April 1, 2019. How many applications did the Park Service receive? 
What was the total amount of funding requested in those applications? 
When can we expect the release of the first round of grant awards for 
fiscal year 2018 funds?

    Answer. The NPS received 108 applications from 46 States, totaling 
$59.3 million. The awards were announced August 27, 2019.

    (b). When do you anticipate release of the fiscal year 2019 notice 
of funding opportunity?

    Answer. The NPS expects to release the notice of funding 
opportunity for the fiscal year 2019 Historic Revitalization Subgrant 
Program funds in early calendar year 2020 in order to incorporate 
lessons learned from managing the fiscal year 2018 funds.

    Question 7. It has been widely reported that the administration is 
planning a second Fourth of July event, separate and apart from the 
traditional Capitol concert featuring the National Symphony Orchestra 
on the Capitol lawn. It is further reported that this event will 
include an address from the President on the steps of the Lincoln 
Memorial and a relocation of the launch of the iconic fireworks 
display.

    (a). What strains will both these events taking place on and around 
the National Mall place on the National Park Service, the Park Police, 
and the District of Columbia? What additional taxpayer costs will be 
incurred?

    Answer. The NPS regularly hosts large events on the National Mall 
and in the District of Columbia that include concerts, parades, and 
large crowds. While the July 4 celebration expanded public access to 
the places we manage, the additional work required was comparable to 
other past events.

    (b). Please provide details of the Park Police's plans to provide 
security for the administration's planned Lincoln Memorial event. How 
will these competing events impact public access to the National Mall 
in the days leading up to, and including, July 4th? What resources are 
being provided to the District of Columbia to address additional 
security concerns, street closures, and transportation disruptions?

    Answer. The Park Police worked closely with the District of 
Columbia, the U.S. Secret Service, other law enforcement agencies, and 
participating branches of the U.S. Military to determine the 
appropriate levels of security at the events. Public access to the 
National Mall during the celebration significantly expanded because the 
Lincoln Memorial Reflecting Pool, Constitution Gardens, and the World 
War II memorial were opened for attendees. Like other large events on 
the National Mall, public access was impacted in the days leading up to 
and shortly after the celebration so that park maintenance staff and 
volunteers could install and remove security barricades and ground/turf 
protection.

    (c). Does the Park Service typically consider permit requests for 
public events on the National Mall to be held on July 4th?

    Answer. Yes, the National Park Service receives applications for 
and allows for public events on the National Mall on July 4th.

    (d). If so, has the Park Service granted any permits for public 
events on the National Mall on July 4, 2019? Please provide the 
entities granted these permits.

    Answer. Yes, there were 14 permits issued for public events on July 
4th.

     1. Santo Outreach Ministry/Freedom Fest DC
     2. The Webben Group
     3. Pocket Full of Change Ministries
     4. Honor Flights Network
     5. Celebration Concert Tours International
     6. John Pylka
     7. Executive Office of the President
     8. Tim Hamaker
     9. Irvin Raymond Brookstein
    10. Tighe Barry
    11. Gregory Lee ``Joey'' Johnson
    12. Michael Francis Trochan
    13. Immigrants Make America Great
    14. ISKCON of Washington, DC

    (e). Has the Park Service denied any permits for public events for 
the days leading up to and including July 4, 2019? If so, please 
provide a list of entities denied permits for events to be held between 
June 24, 2019, and July 5, 2019.

    Answer. No permits were denied for public events to be held during 
that period.

    Question 8. The Trump administration has spent the past 2 years 
weakening, undermining, and unraveling environmental protection 
policies and regulations. This month, the administration took an even 
more aggressive step to attack the very science underlying the policies 
it has sought to eliminate. The United States Geological Survey will no 
longer produce scientific assessments using data that modeled climate 
change impacts through the end of the century. Rather, they will now 
use models that predict the consequences of climate change only through 
2040. This change in precedent is a transparent effort to hide the most 
severe consequences of climate change, most of which are predicted to 
come starting in 2050 and beyond. This change in how the underlying 
science is presented would help protect the Trump administration from 
judicial challenges against its current energy policies that are 
undermined by the National Climate Assessment released late last year.

    (a). Why will the U.S. Geological Survey now be limiting its 
climate change modeling projections to run through 2040 as opposed to 
the previous models, which ran through the end of the century?

    Answer. The USGS has not issued, nor does it plan to recommend, any 
directive that restricts the development or use of climate models by 
USGS researchers or limits projections of climate impacts past 2040. 
The USGS will continue to use accepted models, scenarios, and studies 
that contribute to the National Climate Assessment to project the 
impacts of climate change for the next 25-100 years as required by the 
Global Change Research Act of 1990. Also, the USGS will continue to 
assess the entire range of reference scenarios from best-case to worst-
case in its scientific studies projecting impacts of future climate 
change.

    (b). Are there other changes to climate modeling being considered?

    Answer. No changes to climate modeling are currently being 
considered.

    Question 9. Earlier this month, the United Nations released a 
report on the impact of human activity has caused a ``mass extinction 
event,'' with one million species facing extinction. That's one eighth 
of the planet's known species. The report was written by 145 experts 
from 50 nations over 3 years. You have proposed to weaken Endangered 
Species Act regulations in ways long sought by oil, gas, and mining 
interests, and at the expense of sound scientific-based decisions.

    (a). Do you believe the results of this report?

    Answer. I recognize the climate is changing and agree with the USGS 
scientists that there is large uncertainty in projecting future 
climatic conditions. Our role is to ensure that the decisions we make 
are fully informed by science and we rely on that very best science.

    (b). Do you believe your proposed changes are at odds with the 
scientific consensus about a mass extinction event?

    Answer. The proposed changes to the ESA regulations are intended to 
simplify and clarify definitions and procedures and codify procedural 
improvements that have evolved since the last revision. They are 
intended to improve the effectiveness of conservation work under the 
ESA, and they do not change the conservation standards of the law.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
    Question 1. On January 10, 2019, I sent a letter requesting 
information regarding the costs and damages sustained by the national 
parks during the partial government shutdown earlier this year. On 
January 11, 2019, I received a letter that was not responsive to my 
specific requests from National Park Service Deputy Director P. Daniel 
Smith. I sent a follow up letter to your office on February 6, 2019, 
which has remained unanswered. As you know, the decision to keep some 
national parks open during the partial government shutdown resulted in 
severe damage to our Nation's public lands, human health risks, and 
several deaths.
    National Parks, like Joshua Tree, were vandalized and severely 
damaged. For example, in Joshua Tree a 100 year-old juniper tree was 
used for firewood, Joshua trees were cut down to make way for cars 
illegally driving in the desert, and an overflow of human waste in the 
unattended park posed health risks to both people and sensitive 
habitats. Parklands may take hundreds of years to fully recover, and in 
some cases the damage is irreparable. It is important that Congress 
fully understand the ramifications of this decision.

    (a). Please provide an assessment of any damages to natural 
resources and infrastructure and an estimate of necessary repair costs 
for each national park that remained open during the shutdown.

    Answer. The NPS has not done a comprehensive survey of the impact 
that the lapse in funding had on national parks. However, an informal 
assessment conducted with park superintendents revealed there were no 
significant impacts to park resources.

    Question 2. National Park Service permanent staffing levels have 
decreased over the last several years, while more seasonal employees 
have been hired in certain areas and seasons. However, seasonal 
employees are not an adequate replacement for permanent staff that are 
needed for a number of responsibilities throughout the Park Service.

    (a). Please provide a list of staff positions over the last 5 years 
that have been vacated but cannot be filled due to inadequate funds, 
including the name of the parks, position titles, and GS levels.

    Answer. The NPS does not maintain service-wide data that lists 
specific position vacancies or their reason for being unfilled, either 
temporarily or permanently. Variability in parks' mission and 
responsibilities require staffing decisions be made at the local level 
and which address the highest priority local needs.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
    Question 1. Secretary Bernhardt, I was proud to introduce the 
legislation that created the John H. Chafee Blackstone River Valley 
National Historical Park in 2014. The Blackstone Valley is a national 
treasure, with thousands of acres of beautiful, undeveloped land and 
waterways as well as historical sites that highlight Rhode Island's 
role in the Industrial Revolution. As we near the 5 year anniversary of 
its establishment, I am concerned by the overall lack of progress at 
the Park.

    (a). Can you provide an update on the status of the Park? What is 
the Department's timeline for completing the required General 
Management Plan?

    Answer. Park management and Northeast Region leadership continue to 
make progress toward establishing the boundary for Blackstone River 
Valley National Historical Park:

  --Negotiations between the National Park Service and the Old Slater 
        Mill Association to acquire the Slater Mill property through 
        donation continue.
  --A Conservation and Preservation Easement between the National Park 
        Service and the Rhode Island Department of Environmental 
        Management related to co-management of Blackstone River State 
        Park in Lincoln, RI is complete and must be submitted for 
        approval by the Rhode Island State Properties Committee before 
        signature by both parties.
  --Of the four mill villages named in the park's legislation, both 
        Slatersville (North Smithfield, RI) and Ashton (Cumberland, RI) 
        have a General Agreement and a Local Historic District in 
        place, both are requirements to be included in the proposed 
        park boundary; the mill village of Whitinsville (Northbridge, 
        MA) has a General Agreement in place but has not approved a 
        Local Historic District (proposed Local Historic District will 
        go before the Northbridge fall town meeting for approval) and 
        the mill village of Hopedale (Hopedale, MA) has a Local 
        Historic District in place but not a General Agreement (General 
        Agreement is with the Town Administrator for signature then 
        will come to the park Superintendent for final signature).

    (b). Does the Department expect to finalize the acquisition of 
Slater Mill or other sites this year?

    Answer. As noted in the response to the previous question, the NPS 
continues its negotiations with the Old Slater Mill Association to 
finalize the donation.

    (c). Since April 2018, there hasn't been a permanent Superintendent 
assigned to Blackstone. Why has this been the case and when will a 
permanent Superintendent be in place?

    Answer. Great care and deliberation is being taken in selecting the 
next superintendent for the park. Following the vacancy, and after 
conducting a rigorous vetting process, management made the decision to 
re-advertise the position. This decision is supported by the confidence 
in continuity of operations in having the former deputy superintendent 
of the three parks act as the superintendent.
                                 ______
                                 
              Questions Submitted by Senator Jeff Merkley
    Question 1. Your predecessor canceled a study on the health impacts 
of mountaintop mining. The Interior Department's Inspector General 
investigated why that was, and was told that the decision was made 
``largely as a result of the Department's changing budget situation'' 
at the time. One of your staffers, a policy advisor in the Office of 
Surface Mining Reclamation and Enforcement and former coal lobbyist, 
Landon ``Tucker'' Davis, said of the reason for canceling the study: 
``science was a Democrat thing.''

    (a). Do you agree with this statement?

    Answer. The statement does not reflect the policies or operations 
of this Department. I believe that the decisions we make should be 
informed by science and that we must rely on that very best science.

    (b). Shouldn't science, not politics, and most certainly not the 
interests of coal companies, guide the protection and use of our public 
lands?

    Answer. The decisions we make should be informed by science and we 
must rely on that very best science.

    (c). Will you now resume the scientific study on the environmental 
impacts of mining, considering Congress has not made the budget cuts 
you initially cited as justification?

    Answer. As OSMRE staff has indicated, this grant was reconsidered 
for reasons that ranged from imprudent use of resources to duplicative 
research efforts and cited two other studies conducted by other federal 
agencies.

    Question 2. Secretary Bernhardt, in Interior's fiscal year 2020 
proposed budget, you are asking for increased funding for offshore 
energy development, while also cutting the budget for environmental 
enforcement. You also proposed to revoke rules put in place after the 
Deepwater Horizon spill, which were design to prevent another disaster.
    We continue to see increasing damage from climate chaos, and 
instead of investing in conservation and the deployment of clean 
energy, we are trying to double down on infrastructure that will lock 
in decades of carbon pollution. This is a reckless and shortsighted 
approach for both communities and for our climate.

    (a). Will you commit to considering both the climate impacts of 
offshore oil development and the opposition of coastal communities 
before moving forward with the administration's 5-year plan?

    Answer. The Department carefully considers all feedback received 
during the development of a National OCS Program, and will continue to 
do so as this process moves forward. For more information please see 
https://www.boem.gov/National-Program/

                              ATTACHMENT 1

          National Archives and Records Administration Letter

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
                              ATTACHMENT 2

  Disproving Democrat Allegations of Recordkeeping Wrongdoing at the 
                          Interior Department

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
  
    
    
                          SUBCOMMITTEE RECESS

    Senator Murkowski. Thank you very much, and the 
subcommittee stands adjourned.
    [Whereupon, at 11:52 a.m., Wednesday, May 22, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
